<html>
<title> - EXAMINING PROFESSIONAL BOXING: ARE FURTHER REFORMS NEEDED?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



       EXAMINING PROFESSIONAL BOXING: ARE FURTHER REFORMS NEEDED?

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 9, 2004

                               __________

                           Serial No. 108-127

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
96-093                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    ------------------------------  

                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
RALPH M. HALL, Texas                   Ranking Member
MICHAEL BILIRAKIS, Florida           HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
CHRISTOPHER COX, California          SHERROD BROWN, Ohio
NATHAN DEAL, Georgia                 BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi, Vice Chairman           TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho
JOHN SULLIVAN, Oklahoma

                      Bud Albright, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                 JANICE D. SCHAKOWSKY, Illinois
ED WHITFIELD, Kentucky                 Ranking Member
BARBARA CUBIN, Wyoming               CHARLES A. GONZALEZ, Texas
JOHN SHIMKUS, Illinois               EDOLPHUS TOWNS, New York
JOHN B. SHADEGG, Arizona             SHERROD BROWN, Ohio
  Vice Chairman                      PETER DEUTSCH, Florida
GEORGE RADANOVICH, California        BOBBY L. RUSH, Illinois
CHARLES F. BASS, New Hampshire       BART STUPAK, Michigan
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
MARY BONO, California                KAREN McCARTHY, Missouri
LEE TERRY, Nebraska                  TED STRICKLAND, Ohio
MIKE FERGUSON, New Jersey            DIANA DeGETTE, Colorado
DARRELL E. ISSA, California          JIM DAVIS, Florida
C.L. ``BUTCH'' OTTER, Idaho          JOHN D. DINGELL, Michigan,
JOHN SULLIVAN, Oklahoma                (Ex Officio)
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Ali, Muhammad, accompanied by Lonnie Ali and Ron DiNicola....     6
    English, Patrick C., Dines & English, LLC....................    10
    Mack, Robert, World Boxing Association.......................    16
    Sirb, Gregory, Executive Director, Pennsylvania State 
      Athletic Commission........................................    13
    Spizler, Bruce, Maryland State Athletic Commission...........    21
    Thomas, James J., II, McKenna Long & Aldridge................    31
Additional material submitted for the record:
    McCain, Hon. John, a U.S. Senator from the State of Arizona, 
      prepared statement of......................................    51

                                 (iii)

  

 
       EXAMINING PROFESSIONAL BOXING: ARE FURTHER REFORMS NEEDED?

                              ----------                              


                      THURSDAY, SEPTEMBER 9, 2004

              House of Representatives,    
              Committee on Energy and Commerce,    
                       Subcommittee on Commerce, Trade,    
                                   and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2322, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman) presiding.
    Members present: Representatives Stearns, Shimkus, Terry, 
Issa, Sullivan, Barton (ex officio), Schakowsky, Rush, Green, 
and McCarthy.
    Also present: Representative Osborne.
    Staff present: Chris Leahy, majority counsel and policy 
coordinator; David L. Cavicke, majority counsel; Brian 
McCullough, majority professional staff; William Carty, 
legislative clerk; and Jonathan J. Cordone, minority counsel.
    Mr. Stearns. Good morning, everybody, and welcome to the 
Subcommittee on Commerce, Trade, and Consumer Protection.
    I think it is fair to say that boxing has produced some of 
the greatest athletes this country has ever known. Boxers are 
magnificent athletes that deserve a great deal of respect. 
Their athletic skills dazzle us. Their dedication to the rigors 
of training and plain hard work is to be admired, and the 
stories of small time boxers pulling themselves up by their 
bootstraps to rise up from a life of poverty inspires even the 
most cynical among us.
    With that said, I would like to personally and warmly 
welcome as one of our distinguished witnesses one of those real 
live stories of inspiration, dedication and grace, a boxer and 
a legendary champion who is an American hero to so many people 
around the world, the greatest, the great Muhammad Ali. We 
thank you and, of course, your wonderful wife, Lonnie, for 
joining us this morning.
    The boxing world is rich with lore, legend and larger than 
life figures, but it is also full of struggling, anonymous 
fighters who are away from the limelight of big time promotion, 
who travel from town to town and fight to fight, just trying to 
make an honest living.
    They train as hard as any heavyweight contender, are 
committed to the sport they love, but sometime face conditions 
that are unsafe, businessmen who are unethical and a future 
that is often uncertain.
    There are also the stories of those who have suffered great 
injury and even death in the largely unseen world of 
competitive boxing at the local level. These are the men, and 
now women, that deserve the protection the law affords both in 
and outside the ring.
    My colleagues, in 1996 Congress passed legislation reported 
by this committee to help clean up the sport. The Professional 
Boxing Safety Act required all professional boxing matches to 
be conducted under supervision of the State authorized boxing 
commission, created uniform registration and licensing, and 
established minimum safety standards.
    The Muhammad Ali Boxing Reform Act of 2000 expanded on the 
1996 law to prohibit financial conflicts of interest between 
boxing managers and promoters, required certain financial 
disclosure to the Federal Trade Commission, and placed certain 
restrictions on contracts between boxers and promoters and 
managers.
    In an attempt to gauge the status of the sport after this 
significant Federal legislation, the General Accounting Office 
in 2003 conducted a study on professional boxing that focused 
on six elements designed to better protect the health and 
safety of boxers. Among them were medical exams, monitoring of 
training injuries, health and life insurance, and the presence 
of appropriate medical personnel at all and each event.
    As we reflect and examine the important work accomplished 
to date, this committee first must determine if reforms are 
working; and while protecting the most vulnerable among us, 
either in sport or any other context in America, is a truly 
laudable goal, a question remains: Will additional Federal 
oversight to police the sport improve the lives of the ordinary 
boxers or, in the alternative, can we examine what has been 
accomplished by the most recent Federal legislation and perhaps 
look at other non-governmental approaches that would accelerate 
the pace of reform and increase protection for these elite 
athletes?
    Today's hearing will offer an excellent opportunity for 
committee members and the public to explore these issues and 
questions, as well as hear from the regulators, sanctioning 
bodies and, most importantly, the athletes about what is 
working and what needs attention.
    With that, again I would like to again graciously thank our 
distinguished panel of witnesses for joining us today. We look 
forward to their testimony.
    With that, I would like to offer Ms. Schakowsky, the 
ranking member, a opening statement.
    Ms. Schakowsky. Thank you, Mr. Stearns. I am going to put 
the bulk of my statement into the record so that we can proceed 
as quickly as possible to our esteemed witness today and our 
panels.
    I want to personally thank you, Mr. Muhammad Ali, and your 
wife, Mrs. Ali, for being here today. You really are, as you, I 
am sure, know, one of the great heroes of our time, and I 
appreciate so much your generosity of spirit and the courage 
that you have continued to show to keep fighting for the things 
that you care so much about, the issues that are so important, 
and for providing the kind of inspiration that young people 
need so much today to do the same thing, to keep on fighting.
    So we are going to consider legislation--consider the issue 
of whether or not there needs to be more regulation of the 
sport that you love so much, and we welcome your input and your 
help in making those decisions as we try and set policy.
    So I thank you very much, and ask unanimous consent to put 
my statement fully into the record.
    Mr. Stearns. By unanimous consent, so ordered.
    [The prepared statement of Hon. Jan Schakowsky follows:]

Prepared Statement of Hon. Jan Schakowsky, a Representative in Congress 
                       from the State of Illinois

    Thank you, Chairman Stearns, for holding today's hearing on boxing 
and whether new regulations are needed to ensure that boxer's health 
and financial interests are protected. I would also like to thank our 
panelists for joining us today--especially you, Mr. Ali, for sharing 
your ideas about how to improve the governance of the sport you love.
    As you know, historically the regulation of boxing has been purely 
under the jurisdiction of the states. In the mid-1990's, when reports 
of corruption and scandals became more frequent, Congress decided it 
was time to take a closer look at the sport. After all, boxing is no 
small affair: the sport generates over $500 million in revenues each 
year.
    With the passage of the Professional Boxing Safety Act in 1996, 
soon followed by the Mohammed Ali Act in 2000, minimum standards were 
set to protect the physical and economic well-being of the boxer and 
each state boxing commission was charged with meeting those standards. 
While some states, such as Pennsylvania and Nevada, have strong boxing 
commissions that go well beyond the minimum federal requirements, there 
is still concern that other states are ignoring the regulations.
    Many argue that federally-mandated health and safety standards are 
not being adhered to because no corresponding government regulatory 
body exists. The absence of a national commission makes boxing unlike 
all other major professional sports and, I believe, should give us 
pause.
    Boxing is also unlike many other sports in that there are very 
serious physical repercussions. That means if the health and safety 
standards are not being met, if the professionals who are used to 
monitor boxers' fitness are not experts in the appropriate medical 
fields, the boxers' very lives are at stake. Approximately 50 boxers 
have died in the ring over the last 35 years.
    Additionally, because so many parties have a financial stake in 
each boxing match, and their interests may run counter to getting the 
boxer the most favorable contract terms, many boxers end up destitute. 
In this sense, boxers are like many other kinds of ``talent'' or 
``workers''--their gifts are other's fortunes--and they are treated as 
disposable assets. Now that networks and broadcasters are acting more 
like promoters, but are not subject to the same regulations that 
traditional promoters are, I believe that there are new vulnerabilities 
in this sport that we need to examine.
    While I cannot say what the answer to these problems is at this 
time, I do believe it is our responsibility, as those who set the 
minimum standards, to ensure that boxers are not being put in the ring 
without being protected, both physically and economically.
    That is why I am glad you all are here with us today to help us 
determine the best role for the federal government to play to ensure 
the best interests of those participating in the sport. I look forward 
to your testimony. Thank you, Chairman Stearns.

    Mr. Stearns. I thank the gentlelady, and now the full 
chairman of the Energy and Commerce Committee, Mr. Barton, the 
gentleman from Texas.
    Chairman Barton. Thank you, Mr. Chairman. I appreciate you 
holding this hearing. I, too, want to welcome Muhammad Ali and 
his wife and his attorney to bring much needed light to the 
status of boxing in America.
    I am not going to give my entire written statement. I will 
paraphrase a part of it. There is apparently a situation in the 
boxing community where all these various rankings are supposed 
to be organized and held to some standard that is verifiable, 
but at least anecdotally, our understanding of a story in which 
a boxer started out at No. 10, didn't fight for a year, rose to 
No. 7 in the rankings, died of meningitis and moved up to No. 5 
in the world, and nobody knew about it until a reporter says, 
well, that gentleman has been dead for months.
    If that is a true story, and I hope we find out at this 
hearing, it shows how appalling some of the organizations are 
in the sport that claim to lead it. So I hope we can get some 
answers today.
    Again, I want to thank Mr. Ali and his family. This hearing 
would not have nearly the publicity if he wasn't here, and we 
really do appreciate it.
    [The prepared statement of Hon. Joe Barton follows:]

 Prepared Statement of Hon. Joe Barton, Chairman, Committee on Energy 
                              and Commerce

    Thank you, Mr. Chairman, for holding this hearing today.
    Championship boxing matches can be as exhilarating, strategic, and 
graceful as any sporting event. America has produced some of the 
world's greatest champions--including the Greatest of All who is with 
us today--Muhammad Ali. He and his fellow boxers at every weight class 
have thrilled us as amateurs in the Olympics and later as 
professionals.
    Unfortunately for the boxers, they often battle odds significantly 
greater than the odds of defeating their opponent in the ring once they 
leave the amateur ranks and enter the world of professional boxing. And 
for the vast majority of boxers who are not in the elite class, the 
hurdles can be even greater. These athletes can face obstacles more 
dangerous than any other athlete--from the health risks of the 
demanding physical nature of the sport to the financial exploitation of 
many boxers for others' personal gains. As a result, the history of 
boxing and the perception of its treatment of boxers continually plague 
its image as a premier sport.
    Congress has recognized the problems regarding the safety of boxers 
and the business aspects that are unique to the world of boxing. We 
have attempted to address these concerns through Federal legislation 
twice in the past eight years that establishes requirements for the 
states to follow without creating a Federal regulatory regime.
    The reforms Congress enacted established the sharing of health 
records and medical suspensions for boxers who have failed the basic 
physical requirements due to injury. These were meant to prevent a 
fighter from being licensed in another state and entering the ring 
until such time as he was physically able to return. However, stories 
have been reported that the medical suspensions are not always enforced 
by some states in spite of the law. I am informed of one example that 
involves a fighter who had four matches when he was supposed to be 
barred from boxing due to a medical suspension.
    Another more widely publicized match unfortunately resulted in 
trauma to a boxer in the ring. The Federal law requires medical 
personnel to be present at ringside. Unfortunately for the boxer, the 
doctor on hand during his match was not at ringside and time was wasted 
before any medical attention was provided to the boxer after he was 
knocked down. My point is that the states are required to follow the 
law and yet it appears that is not always the case.
    Equally troubling are the business aspects of professional boxing. 
One of the requirements of the law is that sanctioning organizations 
have clear, objective rankings criteria. I am told the boxing community 
is well aware of the story of a boxer who rose to number 10 in the 
rankings without fighting for a year, rose further in the rankings to 
number 7, died of meningitis, and was subsequently ranked number 5 in 
the world--without ever fighting--for an additional four months before 
it was noticed by a reporter. This occurred despite the Federal Law--
the Muhammad Ali Act. Errors may occur, but there has to be some 
accountability if the credibility of the sport is to be restored.
    The question really is whether the states are up to the job and we 
need to simply enforce current law, or whether any Federal law will 
ever remedy some of the problems that seem to be inherent in boxing.
    I am glad we have very knowledgeable witnesses to explain what is 
happening with boxing and whether the changes we previously made are 
effective. I know there are strong feelings about this issue and 
greatly appreciate the dedication and determination of all our 
witnesses. In particular, I commend Muhammad Ali for his unwavering 
desire over the years to improve his sport for all boxers.
    Again, thank you Mr. Chairman.

    Mr. Stearns. I thank my colleague.
    Ms. McCarthy.
    Ms. McCarthy. Thank you, Mr. Chairman. I am going to put my 
remarks in the record. I just want to welcome Muhammad and 
Lonnie Ali, and thank you both. You are a great team. You are 
one of the most recognized and prettiest man and woman, and we 
thank you for all that you do, and I look forward to supporting 
the legislation and seeing it enacted into law. I yield back, 
Mr. Chairman.
    [The prepared statement of Hon. Karen McCarthy follows:]

Prepared Statement of Hon. Karen McCarthy, a Representative in Congress 
                       from the State of Missouri

    Thank you, Chairman Stearns and Ranking Member Schakowsky for 
convening this hearing today. I would like also to extend my warmest 
welcome to Mr. and Mrs. Ali who have graciously decided to participate 
in the debate. I am very glad that you were able to make the trip to 
Washington to be with us.
    This committee has taken the issue of boxing reform up before, once 
in 1996, and again in 2000. I supported the 1996 reforms and the 2000 
``Muhammad Ali Boxing Reform Act'' that honors Mr. Ali's commitment to 
boxing reform. At the time, I hoped those measures would be sufficient 
to curb the exploitation of the athletes, and to see to their health 
and safety. It is disappointing to learn that the states and various 
boxing commissions have not decided on their own to embrace the spirit 
of ``The Muhammad Ali Boxing Reform Act'' and establish enforceable, 
uniform practices that protect the health of the athletes and encourage 
ethical business standards.
    I feel strongly that this body needs to act when it is called on to 
do so, but that we should be wary of the temptation to over-extending 
our reach beyond where it is truly needed. Today's meeting has been 
called to decide just that issue.
    Because my home state of Missouri has already moved to address some 
of the issues before the committee, I would like to voice two concerns 
the director of the Missouri Office of Athletics has regarding the 
passage of S 275 that he wished to share with the committee in person, 
but was unable to because of scheduling conflicts:

1. The concern that the duplicitous licensing fees may encourage boxers 
        to leave Missouri by increasing the cost of boxers to ply their 
        trade in the state.
2. The potential to further discourage boxing matches by increasing 
        strict medical requirements for boxers that will price rural 
        venues out of the market.
    However, if abuses still exist, I would like to hear in this 
morning's testimony how the various boxing commissions and states are 
moving to address the safety and management problems raised by our 
panelist.
    Again, I would like to thank the esteemed panelists for sharing 
their expertise with this committee, with a special thank you to 
Muhammad Ali for his continued activity and use of his celebrity status 
to improve other people's lives.

    Mr. Stearns. I thank the gentlelady.
    The gentleman from California.
    Mr. Issa. Mr. Chairman, I would ask unanimous consent that 
all of us be allowed to put our official statements in the 
record, and that we move on to the testimony, if there are no 
objections.
    Mr. Stearns. I thank the gentleman.
    Mr. Sullivan, anything?
    Mr. Sullivan. No.
    Mr. Stearns. With that, we will dispense with any further 
opening statements and move directly to the first panel: Mr. 
Muhammad Ali, his wife, Lonnie, and also accompanied by Lonnie 
is Ron DiNicola, Mr. DiNicola.
    So with that, Mrs. Ali, we will welcome your opening 
statement. Thank you.

 STATEMENT OF MUHAMMAD ALI; ACCOMPANIED BY LONNIE ALI; AND RON 
                            DiNICOLA

    Ms. Ali. Thank you, Mr. Chairman and the subcommittee for 
the invitation to be here this morning.
    Mr. Stearns. I think we need you to take the mike, bring it 
over to you, and then turn it on.
    Ms. Ali. Oh, it is not on?
    Mr. Stearns. No, it is just a little push button there.
    Ms. Ali. Oh, okay, it is on.
    Thank you, Mr. Chairman and members of the subcommittee for 
the invitation to be here this morning. It will be my pleasure 
to read this statement on behalf of Muhammad.
    ``I have had the pleasure of appearing before Congress 
several times in recent years to lend my support to the passage 
of laws that will better protect the sport that I love and the 
health and welfare of thousands of young boxers.
    ``I am here today, because the work of improving boxing is 
not yet done. To answer questions posed by this committee, yes, 
more reform is needed in the sport.
    ``While this is modern boxing's second century in America, 
efforts to reform it at the Federal level have been underway 
for only about 8 years. While much progress has been made, much 
more is needed.
    ``Largely as a result of the work of my friend, Senator 
John McCain, Congress took an important first step when it 
passed the Professional Boxing Safety Act in 1996. This 
legislation was an attempt to address medical and safety issues 
by requiring each professional boxer to register for a Federal 
ID card.
    ``This has been one of the most successful reforms to date, 
because it has precluded fighters from getting knocked out one 
night and traveling across State lines to fight the next.
    ``In 2000, Congress attached my name to their next 
important reform measure, the Muhammad Ali Boxing Reform Act. 
The Ali Act amended the 1996 law and addressed contractual 
issues, and required broad financial disclosures to boxers by 
promoters and rating organizations, and outlaws coercive 
contracts between boxers and promoters.
    ``While portions of this measure have been effective, and 
more transparency exists today in boxing that at any other time 
in history, there are still disturbing indications that 
Federal, state, and tribal enforcement of boxing laws has been 
spotty and, in some respects, nonexistent.
    ``A 2003 General Accounting Office report found that there 
is varying degrees of oversight among the State and tribal 
commissions. The GAO found a lack of consistency in compliance 
with Federal boxing laws among State and tribal commissions, 
and it does not provide adequate assurance that professional 
boxers are receiving the minimum protections established in 
Federal law.
    ``This is why I have lent my support to further measures 
that will give real teeth to the Federal oversight and 
enforcement. The Professional Boxing Amendments Act, Senator 
McCain's bill, S. 275, does this. It is a bold step, the right 
step, at an important time in history of the sport.
    ``Reform measures are unlikely to succeed unless a U.S. 
Boxing Commission is created with authority to oversee a sport 
that still attracts a disproportionate number of unsavory 
elements that prey upon the hopes and the dreams of young 
athletes.
    ``This latest proposal is the culmination of the hard work 
and determination of Congress to make a difference once and for 
all and to require uniform safety standards, fair rating 
standards, full financial disclosure, and universal licensing.
    ``Those of us who have lent our voice to this reform effort 
over these several years are proud that after careful scrutiny, 
this legislation passed the Senate by unanimous consent.
    ``While Congress is rightly concerned about the rising cost 
of Federal programs, this legislation uses the licensing fees 
paid by promoters, sanctioning bodies, and television 
broadcasters to help offset its costs. The added savings in the 
form of increased boxer safety, more honest business practices 
and greater public confidence cannot be measured in terms of 
dollars and cents.
    ``For all of its difficulties, boxing is still a wonderful 
sport. It still attracts men and women from all walks of life 
to reach for the glory in the ring. For many, it is their first 
experience with hard work, determination and discipline. For 
still others, it remains the only way up and out from a life 
filled with bad choices, failure or worse.
    ``Some say that it is a miracle that a black boy from 
Kentucky named for a slave master and born in a segregated 
south can grow up and become one of the most recognized, and 
prettiest''--I didn't add that--``men on the face of the earth. 
In truth, it is a miraculous story that springs from the 
deepest wells of America and, in this case, boxing was the 
vehicle for my success.
    ``This is not uncommon. Armed with the discipline they 
learned from boxing, many go on to achieve success or even 
greatness in other professions, and raise children who do. They 
become doctors, lawyers, teachers, or even Members of Congress. 
As in the case of my old friend Nelson Mandela, the courage 
instilled from boxing allows them to endure great hardship and 
become great leaders.
    ``In sum, Mr. Chairman, there is nothing wrong with boxing 
that we cannot fix. I urge this subcommittee to seize this 
opportunity to complete the important work that you have begun.
    ``Thank you very much.''
    [The prepared statement of Muhammad Ali follows:]

                   Prepared Statement of Muhammad Ali

    Mr. Ali is appearing with his wife, Lonnie Ali, and his attorney, 
Ron DiNicola.
    Thank you Mr. Chairman and members of the Subcommittee for the 
invitation to be here this morning.
    I have had the pleasure of appearing before Congress several times 
in recent years to lend my support to the passage of laws that will 
better protect the sport I love and the health and welfare of thousands 
of young boxers.
    I am here today because the work of improving boxing is not yet 
done. To answer the question posed by this Committee--yes, more reform 
is needed.
    While this is modern boxing's second century in America, efforts to 
reform it at the federal level have been underway for only about eight 
years. While much progress has been made, much more must be done.
    Largely as a result of the work of my friend Senator John McCain, 
Congress took an important first step when it passed the Professional 
Boxing Safety Act in 1996. This legislation was an attempt to address 
medical and safety issues by requiring each professional boxer to 
register for a federal ID card.
    This has been one of the most successful reforms to date because it 
has precluded fighters from getting knocked out one night and traveling 
across state lines to fight the next.
    In 2000, Congress attached my name to their next important reform 
measure--The Muhammad Ali Boxing Reform Act. The Ali Act amended the 
1996 law and addressed contractual issues and required broad financial 
disclosures to boxers by promoters and rating organizations, and 
outlawed coercive contracts between boxers and promoters.
    While portions of these measures have been effective, and more 
transparency exists today in boxing that at any other time in its 
history, there are still disturbing indications that federal, state, 
and tribal enforcement of boxing laws has been spotty and in some 
respects, non-existent.
    A 2003 General Accounting Office (GAO) report found that there is 
varying degrees of oversight among state and tribal commissions. The 
GAO found the--lack of consistency in compliance with federal boxing 
law among state and tribal commissions ``does not provide adequate 
assurance that professional boxers are receiving the minimum 
protections established in federal law.''
    This is why I have lent my support to further measures that will 
give real teeth to federal oversight and enforcement. The Professional 
Boxing Amendments Act--Senator McCain's bill, S. 275--does this. It is 
a bold step--the right step--at an important time in the history of the 
sport.
    Reform measures are unlikely to succeed unless a U.S. Boxing 
Commission is created with authority to oversee a sport that still 
attracts a disproportionate number of unsavory elements that prey upon 
the hopes and dreams of young athletes.
    This latest proposal is the culmination of the hard work and 
determination of Congress to make a difference once and for all and 
require uniform safety standards, fair rating standards, full financial 
disclosure and universal licensing.Those of us who have lent our voice 
to this reform effort over these several years are proud that after 
careful scrutiny, this legislation passed the Senate by unanimous 
consent.
    While Congress is rightly concerned about the rising cost of 
federal programs, this legislation uses the licensing fees paid by 
promoters, sanctioning bodies, and television broadcasters to help 
offset its costs. The added savings in the form of increased boxer 
safety, more honest business practices and greater public confidence 
cannot be measured in dollars and cents.
    For all its difficulties, boxing is still a wonderful sport. It 
still attracts men and women from all walks of life to reach for glory 
in the ring. For many it is their first experience with hard work, 
determination and discipline. For still others it remains the only way 
up and out from a life filled with bad choices, failure or worse.
    Some say it is a miracle that a black boy named for a slave master 
and born in the segregated south can grow up and become one of the most 
recognized (and prettiest) men on the face of the earth. In truth, it 
is a miraculous story that springs from the deepest wells of America. 
And in this case, boxing was the vehicle for my success.
    This is not uncommon. Armed with the discipline they learned from 
boxing, many go on to achieve success or even greatness in other 
professions and raise children who do. They become doctors, lawyers, 
teachers, or even members of Congress. As in the case of my old friend 
Nelson Mandela--the courage instilled from boxing allows them to endure 
great hardship and become great leaders.
    In sum, Mr. Chairman, there is nothing wrong with boxing that we 
cannot fix. I urge this Subcommittee to seize this opportunity to 
complete the important work you have begun.
    Thank you.

    Mr. Stearns. Thank you, Ms. Ali. You mentioned Senator 
McCain being a strong advocate. I would also recognize a coach, 
Congressman Tom Osborne, who is to your right here, who just 
came in. He is sitting over there. He is behind you.
    Ms. Ali. Oh, he is over there.
    Mr. Stearns. Mr. Osborne was very strong in advocating the 
same as Senator McCain. So I think both of them--particularly 
in the House he has been very strong to help you.
    Ms. Ali. Thank you.
    Mr. Stearns. Now your attorney, DiNicola, you are welcome 
if you want to add anything here. You are not specifically on 
the panel, but certainly you are his counsel, and you certainly 
might want to add a few things to make the argument strong, 
too.
    Mr. DiNicola. Thank you, Mr. Chairman. I don't have 
anything to add. Muhammad has an abiding interest in this 
issue. He has appeared before a number of committees over the 
last several years, and is here today to again strongly support 
continued improvements in boxing, and we thank the subcommittee 
for this opportunity and the extraordinary work of your staff 
in helping to facilitate Muhammad's appearance and Lonnie's 
appearance here this morning. Thank you very much.
    Mr. Stearns. Well, we thank you. We are going to dispense 
with questions. I would think the argument will come down to 
whether the Federal Government can do a better job of 
regulating the sport than the States. Obviously, States like 
Las Vegas don't agree, and they are pretty active here, and 
they have made a strong case. They have had a good reputation, 
they say, and they have a commissioner who has contacted us and 
others.
    So I think that just a general question for you before I 
let you go, to either you, Ms. Ali, or his counsel, is that the 
case that the States are making, that they could do a good job, 
and why should the Federal Government step in.
    Now I can almost make the case for you why the Federal 
Government should, because then it is standard regulations 
across 50 States instead of having separate standards with no 
control. But the States that primarily have been promoting 
boxing, Las Vegas and New York and so forth, feel that they are 
doing a good job, and so they think that their prototype is 
something that should be kept in place, and they don't want any 
Federal regulation that would disrupt that.
    So you might want to comment to that.
    Mr. DiNicola. I would be happy to, Mr. Chairman. There are 
a number of commissions in the United States that do an 
extraordinary job, Nevada being one of them, and several 
others. I see representatives of some of those commissions and 
the Association of Boxing Commissioners here today, and they do 
an extraordinary job.
    I think that one of the key themes of this legislation, 
this new legislation, has been that it isn't supposed to 
supplant the important work at the local level of the local 
boxing commissions, that it isn't to micro manage boxing at the 
local level, but rather to provide an umbrella, an oversight 
capability, if you will, to prevent cracks in the system, to 
prevent disparate enforcement, to create uniformity and to 
overall increase a stronger Federal presence in the sport.
    I am sure, although none come to mind, that there are other 
examples of tiered enforcement where State and Federal 
enforcers can work in a complementary fashion. But certainly, 
the local commissions play a very important role, and many of 
them are doing a terrific job.
    It is to better--It is to complement that effort, rather 
than to supplant it, that I think is at the core of this 
legislation.
    Mr. Stearns. One final note is that I think a lot of the 
staff and I were concerned that the safety of the fighter in 
the ring--is there a medical doctor always present, and can you 
be assured from State to State, even in not just the main 
heavyweight bouts, but also the smaller fights in terms of 
recognition--is there a medical doctor there, and are the 
States assuring that.
    So one aspect about the Federal legislation would be that 
that would be a demand and mandatory, and that could be 
enforced from State to State, and you would not have sort of 
the loose set of laws that would not ensure it. So then that 
safety of all these fighters would be, I think, much more 
preserved and protected.
    With that, we thank Muhammad and Ms. Ali and the counsel 
for being with us today, and we will continue with panel No. 2.
    Ms. Ali. Thank you very much, all of you.
    Mr. DiNicola. Thank you, Mr. Chairman.
    Mr. Stearns. We welcome the second panel, which would be 
Mr. Patrick C. English who is a partner of Dines & English. Mr. 
English is a former member of the National Association of 
Attorneys General's Task Force on Boxing; MR. Gregory Sirb, 
Executive Director, Pennsylvania State Athletic Commission; Mr. 
Robert Mack, General Counsel & Chairman, Legal Committee, World 
Boxing Association; Mr. Bruce Spizler, Chairman, Legal 
Committee, the Association of Boxing Commissioners, Senior 
Assistant Attorney General, the Maryland State Athletic 
commission; and last, James Thomas II, attorney for Evander 
Holyfield and other boxers, who is with McKenna Long & Aldridge 
law firm.
    With that, gentlemen, I welcome you, and we will start with 
you, Mr. English, for your opening statement.

STATEMENTS OF PATRICK C. ENGLISH, DINES & ENGLISH, LLC; GREGORY 
   P. SIRB, EXECUTIVE DIRECTOR, PENNSYLVANIA STATE ATHLETIC 
COMMISSION; ROBERT E. MACK, WORLD BOXING ASSOCIATION; BRUCE C. 
   SPIZLER, MARYLAND STATE ATHLETIC COMMISSION; AND JAMES J. 
               THOMAS II, McKENNA LONG & ALDRIDGE

    Mr. English. Thank you. Good morning. I am going to depart 
a little bit from my written statement, but at the outset I 
think I have to say I represent a number of promotional 
entities. I have represented managers. I represent boxers. I 
have been involved in about 160 major fights in one capacity or 
another, but the views that I express, unless otherwise 
indicated, are my own and not that of any client.
    I think that illustrations can show why uniform regulation 
is necessary, and in my written testimony I give three. I am 
going to focus on one. One picture is worth 1,000 words, even 
though it is a word picture that I will be giving.
    There is a fellow named Robert Mittleman who is a well 
known manager and ``advisor'' to boxers. In about May of this 
year he pled guilty to fight fixing and attempting to bribe a 
Federal judge in the District of Nevada in the Federal Court. 
In sworn affidavits that have now been made public, he admitted 
to participating in the fixing of several bouts other than the 
one for which he pled guilty.
    In 1999 Mr. Mittleman had been placed on suspension by a 
boxing commission out of Mexico. The Mexican suspension was 
duly reported to the national registry of suspensions, 
administered by a company called Fight Fax under the auspices 
of the Association of Boxing Commissions.
    Now the Association of Boxing Commissions is an 
organization composed of the duly constituted boxing 
commissions in the United States and many of the provinces of 
Canada, and under the previous Acts passed, both the 
Professional Boxing Health and Safety Act and the Muhammad Ali 
Act, they are given some responsibility for maintaining a 
national registry of suspensions.
    Mittleman had several licenses from 1999 through 2003. As 
far as I can determine, he failed to disclose the Mexican 
suspension on any of those applications, and no jurisdiction 
checked. This brings us up to today.
    Again, in the spring of this year he pled guilty to fight 
fixing and attempting to bribe a Federal judge, and he is still 
plying his trade as an ``advisor.'' His plea was not widely 
known when it was made. I believe it was made on a Thursday. It 
didn't become public until the following Monday. That weekend--
that weekend after he had pled guilty, he appeared at a fight 
in New Jersey and collected a fee as a matchmaker in connection 
with a fight after he pled guilty.
    Obviously, that was not the fault of the New Jersey 
Commission. They didn't know that he had recently pled guilty. 
As I said, it had been kept sealed for a couple of days, but it 
showed the effrontery of the gentleman.
    Now what also shows the problems that we have is that he is 
still operating in that capacity. In the recent Olympic games 
super heavyweight Jason Estrada--there is an error in my 
testimony in terms of the name--expressly stated that he had 
retained Mr. Mittleman as an ``advisor.'' Mr. Mittleman is 
quoted as saying that, when Estrada turns pro, which is now, 
Mittleman will be selecting the opponents for Estrada.
    It is well known in the boxing industry that there is some 
sort of either a verbal or written contract between the two, 
and he is continuing to ply his trade.
    Now there is no jurisdiction that can currently lift a 
license, because he has solved that problem for himself by 
letting his licenses lapse, but he is still operating. No 
jurisdiction--and I have been in contact with the Association 
of Boxing Commissions on this; so I can state with certainty 
that no jurisdiction feels it has the authority to do anything, 
simply because he is not licensed.
    A national commission, hopefully, would have the authority. 
Now I could repeat that example. That just happens to be a good 
example, but I could repeat that many times. I won't bother you 
with names that you probably would not--hopefully, not 
recognize, but there are a number of unsavory individuals of 
that ilk that are still plying their trade in the sport of 
professional boxing and, frankly, not well advising the young 
athletes that are associated with them. They are out for 
themselves, obviously, and they should not be allowed to 
continue.
    Another problem is the spotty enforcement of regulation. 
There are a number of requirements associated with Professional 
Boxing Health and Safety Act and the Muhammad Ali Act, the most 
significant of which, from a business perspective, I think, the 
biggest change, was a ``firewall'' between the promoter and 
between the promoter.
    It is very good thing. Mr. Thomas, I am sure, will speak on 
that. There is no enforcement, zero enforcement, as far as I am 
aware, and I think I am aware. There are lines that have been 
crossed that are well known. Some examples are given in my 
written testimony, and I urge you to take a look at that.
    I know my time is up, and I will stop here. Thank you.
    [The prepared statement of Patrick C. English follows:]

     Prepared Statement of Patrick C. English, Dines & English, LLC

                      CAN BOXING REGULATE ITSELF?

    Allow me at the outset to note that my views are my own, and that 
they do not represent the views of any client.
    My testimony is limited to five minutes. Thus, though I could 
literally write the proverbial book on regulatory omissions, I will 
instead confine myself to three illustrative examples.

                               EXAMPLE 1

    Robert Mittleman is a well known manager and ``advisor'' to boxers. 
In May of this year he pled guilty to fight fixing and to attempting to 
bribe a federal judge. In sworn affidavits he admitted to participating 
in the fixing of several bouts other than the one for which he pled 
guilty.
    In 1999 Mr. Mittleman had been placed on suspension by a boxing 
commission in Mexico. The Mexican suspension was duly reported on the 
national registry of suspensions, administered by Fight Fax under the 
auspices of the Association of Boxing Commissions. Yet from 1999 
through 2003 Mittleman received a series of licenses from U.S. 
jurisdictions. As far as I can determine, he failed to disclose the 
suspension on his applications and no jurisdiction checked the list.
    Worse, after he pled guilty he is still plying his trade as an 
``advisor.'' He cannot be suspended because, at the end of 2003, he let 
his licenses lapse and the ABC takes the position that he cannot be 
placed on the suspension list because he is unlicensed.
    Mr. Mittleman attended the recent Olympic games and the United 
States Heavyweight at those games, Jason Estrada, expressly stated that 
he had retained Mittleman as his ``advisor'' and that Mittleman had 
promised him that he would get him a 1.2 million dollar signing bonus 
when he turned professional, after the Olympic games.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ For additional information, I am attaching to my testimony an 
article by Boston Globe Columnist George Kimball, titled ``Mittleman 
the Boxing Middleman.''
---------------------------------------------------------------------------
    What is wrong with this picture?

                               EXAMPLE 2

    There are two major ``reality series'' currently about to debut. 
They are big budget productions. Both are being filmed substantially in 
California and both involve a series of matches involving professional 
boxers. Both are created by high profile and influential producers.
    The California Commission has decided that to enhance the dramatic 
effect of the series results, including medical suspensions, will not 
be reported to the national registry. As unwise as that may be, I 
assume that the Commission has the authority to suspend its own 
regulations. However, the Professional Boxer Health and Safety Act, 
passed in 1998, expressly requires that results be reported to the 
ABC's boxing registry within 72 hours. In clear violation of the 
Federal Act--and apparently in clear violation of state public records 
acts--the results are not being reported. Why? Simply because it is 
claimed by powerful networks and producers to be ``better T.V.'' if the 
results are kept secret until telecast.
    To be on the series a boxer must sign a contract giving the series' 
producers an exclusive option on the boxer's services for a five-year 
term. Further, one of the clauses of the contracts read:
        I understand and agree that the nature of the Series is such 
        that Producer, for dramatic purposes, may make certain 
        misrepresentations to me and others during the course of my 
        participation in the Series, which misrepresentations may 
        relate to any and all topics of every kind and nature 
        whatsoever (including without in any way limiting the 
        generality of the foregoing, the other Participants in the 
        Series, the title of the Series, information supplied about me 
        to the other Participants in the Series, information supplied 
        to me about the other Participants in the Series, events 
        occurring at the Location, the Series Location Annex and other 
        locations, my status with regard to one or more benefit(s) that 
        may be granted to me, the availability of such benefit, any 
        Purse, the conditions applicable to any Purse, including 
        without limitation the Grand Purse Awards, and the choices and 
        decisions I may be required to make that may affect my ability 
        to compete for any Purse or Award). I understand and 
        acknowledge that, while such conduct might otherwise constitute 
        an actionable tort, I have freely and knowingly consented to 
        such conduct. The waivers, releases and indemnities in this 
        agreement, the Release, and any other agreement that I may 
        execute in connection with the Series expressly apply to any 
        and all such misrepresentations at any time. (emphasis added).
    This provision, if in the contract of any existing promoter, would 
raise a hue and cry. It has generally gone unheralded and certainly 
unregulated.<SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ For additional information I am annexing a column written for 
Seconds Out by Tom Hauser on this topic.
---------------------------------------------------------------------------
                               EXAMPLE 3

    The Muhammad Ali Act has a ``firewall'' provision, prohibiting 
managers from having an interest in a promotional entity and 
prohibiting promoters from having interest in managers.
    It is not unusual for promotional entities in Europe to both manage 
and promote boxers. When they come to the United States, obviously, 
they must comply with Federal law, and create a separation between the 
two functions.
    However, at least one found a way around that prohibition by the 
simple expedient of delegating responsibility to a licensed promoter. 
Thus, for example, it had a multi bout agreement with HBO for U.S. TV 
rights, sold foreign television rights and was ultimately responsible 
for paying its fighters. It avoided licensing requirements by hiring a 
site promoter, never filing the contracts with HBO as required, and 
paying to the site promoter sums necessary to cover the purses. Again, 
local commissions were unaware of the full role of the promotional 
company in question because its contracts were never filed. The 
promotional company now claims that it did not violate the Muhammad Ali 
Act because, it claims, that it was not the entity primarily 
responsible for organizing the event despite the fact that it held 
contracts with both domestic and international telecasters.
    This is not an isolated instance. Unlicensed promoters, managers, 
and advisors abound. Some have criminal records and would be unable to 
be licensed. There is little enforcement of licensing requirements.

                               CONCLUSION

    It has been said that many in boxing thrive upon the chaos which 
exists in the sport and on the lawlessness of the sport. That is true. 
Many do. However, I am here to tell you that many abhor that chaos and 
lawlessness. The late Dan Duva, a friend and client, and the President 
of Main Events, testified in favor of regulation of the sport. Main 
Events, a company I represent, supported both the Professional Boxer's 
Health and Safety Act and the Muhammad Ali Act, as did many others in 
boxing.
    However, in many respects the states have been unable to enforce 
the Acts and they certainly do not have the authority or resources to 
institute the uniform regulations necessary to meaningfully enforce 
those acts.
    No one wants the federal government running their business. That 
would be, with all respect, a disaster. However, boxing is a regulated 
industry and ought to be.
    Respectfully there should be an authority responsible for uniform 
standards to work out the sort of gross abuses which makes the playing 
field far from even. It must have sufficient ``teeth'' so that 
licensing and other abuses can be curbed.
    I would be happy to respond to any questions you may have.

    Mr. Stearns. I thank the gentleman.
    Mr. Sirb.

                  STATEMENT OF GREGORY P. SIRB

    Mr. Sirb. Good morning.
    Mr. Stearns. Good morning.
    Mr. Sirb. First of all, from everybody in Pennsylvania and 
to all your constituents in Florida, we wish you the best.
    Mr. Stearns. Thank you very much.
    Mr. Sirb. My name is Greg Sirb. For the past 14 years I 
have been Executive Director of the Pennsylvania Boxing 
Commission, and very proud of it. I am also the Past President 
of the Association of Boxing Commissions. I live it every day, 
24/7. This is what I do for a living.
    I have been here for every hearing that we have had, in 
1996 and then 2000. I have staunchly supported it all the way 
through.
    For this past year for 2003 we had 856 pro fights. A number 
of those fights aren't in the big highrises of Nevada and New 
Jersey. I will grant you, 80 to 90 percent of them are in the 
backwater States. In the suburbs in the city of Philly, the 
kids learn a trade and apply it.
    We have currently over 23,000 registered boxers in this 
country. About 12,000--these aren't the soccer playing kids we 
are talking about. We are talking about a vast majority of 
minority kids here that educationally cannot withstand some of 
the problems we have, nor physically should be able to put up 
with some of the problems we have in the sport.
    The current status: The two passages of Federal bills have 
helped immensely. I am talking somebody from the front line. It 
has helped us immensely. The creation of the Federal I.D. card, 
which now every fighter carries, helped us immensely. The 
process of the disclosures for the boxers has helped them 
understand the business side of the sport.
    The creation of the National Suspension List: The National 
Suspension List, so that if a kid gets knocked out in Oklahoma, 
he can't come the next day in Pennsylvania and fight. He is on 
the list. A concussion doesn't leave you just because you leave 
your State. It stays, but there are problems that still exist.
    There are problems that exist that I think this bill 275 
can grab, take hold of, and help. One, enforcement: It has been 
lax. I don't think there is any question about that. It is up 
to the State Attorney Generals. That has been a very difficult 
thing to get through. Why? I don't have that answer.
    I am sure there is not the expertise, and I am sure there 
are a number of things to worry about other than pro boxing.
    Second, a more uniform process for the business side of 
this sport, particularly contracts. Let me give you an example. 
What would you think tonight--just like today--the Yankees 
played a double-header today. How about if the next day he got 
up and said, you know what, I got a little bit more money from 
the Red Sox; I'm going to play with the Red Sox on Friday. That 
couldn't happen in pro baseball--could not happen. In boxing, 
happens, could happen. Could happen.
    A contract is not worth one little thing in this sport, 
because no central agency can control it.
    Third, sanctioning bodies--they have to fall under a 
licensing. We thought a sanctioning body--the story that your 
preceding chairman, Mr. Barton, talked about--the fighter's 
name is Morris. I believe it is Darrin Morris. That is a true 
story. That is fact. A ranking organization based right here in 
the United States: Fact, their chairman is serving time right 
now for basically selling their ratings. That is a fact.
    Fourth, each State and tribal commission that runs this 
sport of boxing--admittedly, Chairman Stearns, there are some 
good ones. There are some very good ones, but I see this law 
not as a ceiling. This law is the floor. This is where you have 
to be.
    The States--the great States of Nevada, New Jersey, New 
York, including my State of Pennsylvania--I'm not scared of 
this law. Why? Because we didn't do it. This is not to bother 
me, and I am a very big State's rights issue. That is very 
important to me.
    When you talk about health and safety of a fighter, you are 
going into the next realm. You are going into the next realm 
when you talk about the health and safety of a fighter.
    Senate Bill 275 can help this sport. It has to be run the 
right way. I am little nervous. I will be honest with you, but 
I will take my chances, because I have seen the other way, and 
it just is not working, particularly with the fighters. A 
pension system for these young men that every other sport has 
and we don't--it can be done with 275 worked the right way.
    I thank you for your time.
    [The prepared statement of Gregory P. Sirb follows:]

Prepared Statement of Gregory P. Sirb, Executive Director, Pennsylvania 
                       State Athletic Commission

    Good Morning: My name is Greg Sirb. For the past fourteen years I 
have served as the Executive Director of the Pennsylvania State 
Athletic Commission as well as currently serving as Past President of 
the Association of Boxing Commissions.
    For this past year (2003) there were 856 professional boxing events 
held in the US, the state of California staged the most boxing events 
with (108) followed by Texas with 65, Nevada (55), Pennsylvania (54) 
and Florida with (37). Today there are over 12,000 registered boxers in 
the US.
    My testimony before you today will focus on two parts: first, the 
status of the game today especially as it pertains to the two federal 
laws, and second, the changes that still need to be made.
    Current Status--with the passage of the Professional Boxer's Safety 
Act in 1996, two major regulatory changes were made that most 
definitely improved the sport of boxing. First was the introduction of 
the Federal Identification Card, which is a 6-digit number that 
identifies each individual boxer and is used to accurately track a 
boxer's win/loss record. This I.D. Card has helped boxing commissions 
to essentially eliminate the practice of boxers trying to use various 
names or aliases as well as trying to falsify their boxing records. 
Because of this, accurate record keeping has greatly improved. With all 
boxing records now being sent to Fight Fax, which is the central 
registry for all records in the United States, boxing commissions now 
have up-to-date and accurate information on all boxers so as to help 
the commissions make a more informed decision on whether to allow a 
particular match-up.
    The second major part of the Professional Boxer's Safety Act was 
the creation of the National Suspension List, which ensures that boxers 
competing are not on any type of medical suspensions. By putting this 
information online all boxing commissions, can easily determine if a 
particular boxer is on suspension and the reason why.
    These two steps, which have been implemented through the 
Association of Boxing Commissions, have no doubt improved the safety 
and quality of professional boxing in this country.
    With the passage of the Muhammad Ali Act in 2000 three more 
significant changes were implemented. First the mandatory disclosures 
that are now required for promoters and sanctioning organizations. 
These disclosures have for the first time given the boxers a general 
understanding of what type of revenues are being generated from the 
fights and what expenditures are being deducted from their purses. 
These disclosures have greatly improved the financial education of 
professional boxers and have acted as sort of a ``sunshine law'' on the 
sometimes-confusing world of revenues and expenditures surrounding 
championship fights.
    Second, the provisions concerning coercive contracts. These 
provisions have entitled boxers and their managers to have a more open 
market when dealing with certain promoters.
    Third, are the provisions dealing with the rankings of boxers. By 
forcing the boxing organizations to disclose their ranking criteria and 
forcing them to respond to boxers who have questions about these 
criteria and their own rankings the boxers and the boxing public have 
become better informed on how this whole ranking process works.
    Improvements/Trouble Spots that need to be addressed: First, the 
enforcement of the two federal laws needs to be improved. Without 
proper enforcement these laws are useless. The current system of 
letting the various State Attorney Generals handle these issues has not 
been working.
    Second, there needs to be a more uniformed process for the handling 
of bout agreements, and boxer/manager and boxer/promoter contracts. 
These contracts should be on one universally accepted form that must 
also be on file in one central location so that all parties can readily 
attain information on a particular boxer's contractual situation. The 
current system of how commissions compile and enforce these contracts 
is a mess.
    Third, sanctioning bodies whom rank boxers need to be licensed. It 
is only through this process that sanctioning bodies would be forced to 
agree to some generally accept business and ranking principles so that 
the rankings are based strictly on win/loss records and not on who your 
promoter is or how much influence your promoter may have.
    Fourth, there needs to be sanctions put on those state or tribal 
boxing commissions that do not up-hold the federal laws or that have 
antiquated rules/regulations that put the boxer in either physical or 
financial danger. Such things as requiring that an ambulance along with 
paramedics and proper equipment be at ring-side at all times, that the 
promoter is bonded in a certain amount to ensure all boxers and other 
bills, including insurance coverage, are paid in a timely fashion, that 
all boxers agree to and sign a bout contract before each bout, and that 
procedures are developed to ensure that these bout contracts are up-
held by both the promoter and the boxer (so that boxers cannot sign a 
bout agreement and then not show up) and that all payments agreed upon 
on these bout contracts are made.
    Fifth, there needs to be some agreement on the type of medicals 
that are needed for licensure of professional boxers and a system to 
pay for them. The current medical requirements vary greatly from state 
to state as does who is responsible for the payment of these exams--
such as (EKGs, EEGs, Eye Exams). It is not uncommon for a Boxer who 
knows he cannot pass the medicals of one state to search out another 
state that has less stringent requirements so that they may continue 
their boxer careers.
    And lastly the formation of some type of pension system for retired 
boxers. In a sport where millions are made in one night there needs to 
be some system set-up so that the wealth is shared, to some degree, 
with all boxers and not just the privileged few.
    Overall I feel that boxing in general has improved as a result of 
the federal intervention and each of the trouble spots I have mentioned 
are adequately addressed in Senate bill 275. There is no question that 
professional boxing, especially at the commission level, is still 
lacking in three basic areas, Uniformity, Professionalism and 
Consistency and these three points would be accomplished through the 
passage of S. 275.
    I would like to thank the members of this committee for the 
opportunity to testify before you this morning and would be willing to 
answer any and all questions that you may have.

    Mr. Stearns. I thank you.
    Mr. Mack. Welcome.

                   STATEMENT OF ROBERT E. MACK

    Mr. Mack. Mr. Chairman.
    Mr. Stearns. Pull it right close to you, and I think you 
have to turn it on. Go ahead. There you go.
    Mr. Mack. I don't have the voice Mr. Sirb has. So I am 
going to have to sit close to the microphone.
    Mr. Chairman and members of the committee, I am honored to 
be here today. My name is Robert Mack. I represent today the 
World Boxing Association. I am the legal advisor and member of 
the Executive Committee of the WBA.
    I am also here on behalf of thee International Boxing 
Federation, making a joint appearance. The President of the IBF 
was to join me today and the Ratings Chair, and I think they 
are on their way from New York. Whether they get here before 
the hearing is over, I am not sure, in case there were specific 
questions.
    Both of our organizations are sanctioned organizations with 
international membership and affiliations with various regional 
and international boxing federations. Related to Chairman 
Barton's question, which I will deal with later, there are a 
multiplicity of ranking organizations. However, there are three 
that are considered the primary organizations, the WBA, the IBF 
and the World Boxing Council, the WBC.
    I wanted to make a few points this morning. First of all, 
the IBF and the WBA have seriously responded to the legislation 
that the Congress passed in 1996 and 2000, and we have chose 
our procedures in response to that legislation.
    Specifically, we have established and reestablished and 
amended objective and consistent written type criteria for 
ratings for professional boxers. Those are posted on our 
websites. We provide boxers and the general public with an 
opportunity to appeal their ratings, and we post copies of our 
ratings changes and criteria on our Internet websites.
    With regard to the question from Mr. Barton, I believe the 
rating was done by an organization that I do not represent that 
uses a computer, and the ratings are done by one individual 
using a computer; and I cannot speak for that organization, but 
we have not rated a deceased fighter, to my knowledge in any of 
our organizations.
    In effect, monthly we rank for the WBA 15 fighters in 17 
weight categories. So that the committee can understand that, 
effectively, that is over 250 individual rating decisions made 
per month. We have had, the WBA, since the passage of your 
statute and since we have changed our procedure, only one 
appeal--one appeal--off of those monthly ratings, and that 
appeal was granted. We have attached an appendix describing the 
situation regarding that.
    Both of our organizations conduct training seminars for 
referees and judges. Both of us conduct medical seminars at our 
annual conventions. In addition, we sponsor various community 
programs.
    We provide detailed appeals process so that boxers, 
managers, and promoters can appeal their ratings decisions, and 
we have those processes on our website. You are going to have 
to cut me off if I go too long, Mr. Chairman.
    Mr. Stearns. You are fine.
    Mr. Mack. As I said, over the last 2 years the WBA has had 
only one appeal. I believe the IBF has had two or three.
    We have endeavored to work cooperatively with State and 
tribal regulators on issues of common interest, and we have 
been meeting with those regulators, most recently at the ABC's 
annual convention in Charleston, South Carolina, and at a 
special meeting convened by the ABC in Las Vegas, Nevada, this 
year to discuss ratings. We both participated in those meetings 
with the ABC officials.
    We acknowledge that improvements can be made to the sport 
of boxing. AS a part of our continuing efforts to improve the 
sport, we have jointly worked to create an open dialog on 
issues. At the last IBF convention--and there is more on this 
in my prepared remark--there was a panel discussing issues in 
professional boxing, and included in that discussion was S. 
275.
    If I may end, Mr. Chair, with some suggestions. We believe 
that the committee can look at certain improvements in boxing. 
However, we ask the committee to recognize that no sport, 
athletic activity or recreational field in the United States 
has ever been made subject to the sort of comprehensive Federal 
regulation set out in the Senate bill.
    No other sport has ever had proposed a special Federal 
regulatory agency under the Department of Commerce.
    Our comments provide detailed concerns about S. 275, 
including, we believe, overly broad discretionary powers that 
would be granted to a Federal commission.
    As I tie those to a regulatory expansion found in that 
bill, we respectfully suggest that the committee look at a 
number of things that we think can be done. First of all, we 
believe you can require that all States and tribes establish 
and enforce minimum health and safety standards, so that boxers 
are adequately protected everywhere in the United States.
    We also believe that you can assist in convening a working 
group to discuss actions that would assist boxers on financial 
management issues.
    We pledge to participate with you in fully taking the 
necessary steps to improve the health, safety and general 
welfare of fighters and the sport in which they compete. We are 
pledged to do that. We have done that in the last few years, 
and we will continue to do that at your request.
    Thank you, Mr. Chairman.
    [The prepared statement of Robert E. Mack follows:]

Prepared Statement of Robert E. Mack, Legal Advisor to the World Boxing 
                              Association

    Chairman Stearns, members of the Subcommittee, my name is Robert 
Mack and I thank you for giving me this opportunity to present the 
views of the World Boxing Association (WBA). Over the past couple 
years, the World Boxing Association has worked with the International 
Boxing Federation (IBF) on efforts to improve the sport of boxing, and 
I have been authorized by the IBF to submit this testimony on behalf of 
both organizations, in order to provide you with a broad perspective 
from world sanctioning bodies. Both the WBA and IBF are sanctioning 
organizations with international membership and affiliations with 
regional boxing federations.
    The WBA and IBF have complied with the Muhammad Ali Boxing Reform 
Act (H.R. 1832) since its passage in 2000. In accordance with the Ali 
Act, the IBF and WBA:

 Have established objective and consistent written criteria for the 
        ratings of professional boxers.
 Provide boxers with the opportunity to appeal their ratings.
 Post copies of all ratings changes and ratings criteria on our 
        internet websites.
    Both organizations have devoted considerable time and attention at 
their annual conferences--as well as at other opportunities--to keeping 
their members updated on regulatory requirements. In recognition of 
this, the Government Accounting Office (GAO) has reported that the 
Federal Trade Commission ``periodically checks the various sanctioning 
organizations' Web sites,'' and that ``sanctioning organizations . . . 
information was posted on the Internet.'' GAO-03-699 (``Professional 
Boxing'') (July 2003), 5.
    Both the WBA and IBF conduct training seminars for boxing referees 
and judges, in their continuing efforts to assure fair and competent 
officiating. Additionally, both the WBA and IBF conduct medical 
seminars at their annual conventions. Each year, the WBA sponsors 
several ``K.O. Drugs'' programs throughout the world and the IBF 
sponsors annual fundraisers to fund their Special Assistance to Retired 
Boxers/educational fund.
    In addition, both organizations publicize detailed appeals 
processes, so that boxers, managers, and promoters can have ratings 
decisions fully and equitably heard and decided. Despite press 
criticisms of particular rating decisions, they rarely, if ever, result 
in either an appeal of the decision or a request for rating 
clarification under 15 U.S.C.  6307c(b). For example, since the 
passage of the Ali Act, the WBA has had only one appeal--from Kirk 
Johnson--and that appeal was granted. (For a complete description of 
that appeal, with a correction of previously published incorrect 
characterizations of it, please see the attached Appendix A.)
    In addition, both the WBA and IBF have attempted to work 
cooperatively with state and tribal regulators on issues of common 
interest, such as ratings criteria and championship bout procedures. 
Both organizations--and members of other sanctioning bodies--
participated this year at the ABC's annual convention in July in 
Charleston, South Carolina, and at a special meeting in April in Las 
Vegas, Nevada to discuss ratings issues.
    In spite of our history of strict adherence to the Ali Act, our 
organizations still encounter unfounded allegations. This record should 
be clear: both the WBA and IBF have published their rating criteria, 
and provide boxers and their managers the opportunity to comment on and 
(if necessary) appeal ranking decisions.
    We acknowledge that improvements can be made to the sport of 
boxing. As a part of our ongoing efforts to improve the sport, the WBA 
and IBF have jointly worked to create an open dialogue in the boxing 
community. For example, at its annual convention in June 2004 in San 
Francisco, the IBF hosted a session titled, ``Issues in Professional 
Boxing.'' Over 70 of the world's top boxers, promoters, matchmakers, 
sanctioning bodies, state commissioners, media representatives, and 
officials gathered to discuss the status of the boxing industry and the 
proposed Professional Boxing Amendments Act of 2004 (S. 275). Among 
others, New Jersey Athletic Commissioner Larry Hazzard and IBF 
Heavyweight Champion Chris Byrd participated.
    Considerable progress was made at the meeting in identifying 
solutions to current issues regarding boxing. There was consensus that 
S. 275 was not the answer to the industry's problems, and that we 
should continue the momentum from that meeting to further address these 
issues.
    There are some who believe that the solution to all of boxing's 
problems is comprehensive regulation by a new federal government 
agency. Certainly sanctioning organizations, boxers (and their 
managers), promoters, and state and tribal commissions should continue 
to work together to address the important issues. They can do this 
essentially under the current regulatory framework.
    No sport, athletic activity, or recreational field has ever been 
made subject to the sort of comprehensive federal regulation and 
preemption of state authority represented by S. 275. Here are some of 
our concerns. (A full statement is set out in Appendix B, a letter from 
the IBF and WBA sent previously to this Committee in April of this 
year.)
1. S. 275 would make boxing illegal in at least six states
    S. 275 would repeal 15 U.S.C 6303, which allows professional boxing 
matches to be held in states without boxing commissions if they are 
supervised by a neighboring state boxing commission. This could make 
professional boxing illegal in Alabama, Alaska, Delaware, Minnesota, 
South Dakota and Wyoming.
2. S. 275 would create duplicate licensing and fight approval 
        requirements
    S. 275 would create a new federal agency, the United States Boxing 
Commission, to oversee professional boxing matches in the United 
States. Currently, state boxing or athletic commissions oversee 
professional boxing matches in the United States. The bill would 
require both the USBC and a state athletic commission to license any 
boxing show which has a 10 round or championship match [Section 4 (b)].
3. S. 275 expands federal regulation.
    Under S. 275, boxing would become the only sport in U.S. history to 
be comprehensively regulated by the federal government. The legislation 
does not adequately recognize the various regulatory requirements 
imposed by state or tribal jurisdictions, or in other countries.
4. S. 275 presents issues of appearance of fairness.
    There is no requirement stated in the proposal for neutral 
officials when boxers represent different states or countries.
5. The ``United States Boxing Commission'' powers are extremely broad.
    S. 275 would create a new federal agency with the authority to 
``conduct any investigation,'' ``subpoena or compel the attendance of 
witnesses,'' ``take evidence and require the production of materials,'' 
``bring actions against individuals,'' ``issue writs of mandamus,'' 
``intervene in any civil action relating to professional boxing,'' and 
``file a brief in any action filed in the U.S. relating to professional 
boxing.'' This would replace, or be in addition to, already adequate 
state and federal enforcement authority.
6. S. 275 would require sanctioning organizations to follow unrealistic 
        notification procedures.
    Currently, sanctioning bodies are required to post a copy of their 
ratings changes on their internet website or home page. S. 275 requires 
personal monthly notification for every boxer who experiences a ratings 
change. Sanctioning bodies do not have individual addresses for the 
hundreds of boxers included in their worldwide ratings. Furthermore, 
the addresses of boxers often change, and it would be nearly impossible 
to assure that each notification reached the intended boxer.
    As alternatives to the regulatory expansion found in the Senate 
bill, we respectfully suggest discussion of the following:

1. Require that all states and tribes establish minimum health and 
        safety standards so that boxers are adequately protected 
        everywhere in the United States.
2. Convene, or assist in convening, a working group to discuss actions 
        that would assist boxers on financial management issues. (The 
        IBF currently requires a mandatory retirement contribution for 
        boxers participating in a championship match.)
    Overall, the WBA and IBF believe that the boxing industry should be 
given the chance to address its problems as other professional sports 
do. We have begun this process and plan to bring affected parties 
together over the next year in ongoing forums to improve the sport: for 
its boxers, its fans, and its own reputation. The most effective 
reforms should come from boxing itself. We pledge to participate fully 
in taking the necessary historic steps to improve the health, safety, 
and general welfare of fighters and the sport in which they compete. 
Congress can encourage and work with all of us in these efforts. 
However, we respectfully request that you allow the boxing industry to 
continue to work with the statutes adopted only a few years ago, and to 
address its problems itself, as other sports do, before passing 
additional legislation and creating new government agencies.

                               Appendix A

                      KIRK JOHNSON ``APPEAL''--WBA

    In its August 2002 ratings for the heavyweight division, the World 
Boxing Association (WBA) had lowered Mr. Kirk Johnson's ranking. These 
ratings were announced in early September 2002. After the announcement, 
the WBA received an unsigned communication from Mr. Dino Duva (on 
behalf of Mr. Johnson), which asked that the WBA ``contact or call'' 
the writer to discuss the ratings. This communication was treated by 
the WBA as a type of administrative ``appeal'', and the WBA scheduled a 
public hearing on the appeal in New York City to be held on October 16, 
2002.
    Others incorrectly interpreted the communication as a request for 
information under the terms of 15 U.S.C.  6307c(b). For example, the 
Executive Director of the Pennsylvania Athletic Commission, Mr. Greg 
Sirb, was quoted as suggesting that the WBA's response to the Duva 
communication showed ``blatant disregard for federal law.'' McCain, A 
Fighting Chance for Professional Boxing, 15.1 Stanford Law and Policy 
Review (2004), 26, fn 138. Others also incorrectly repeated ``reports 
that the World Boxing Association (WBA) has violated the Professional 
Boxing Safety Act.'' See attached letter from Senator John McCain to 
Attorney General John Ashcroft, dated October 11, 2002.
    At the request possibly of certain unidentified federal and state 
officials who alleged that the WBA had violated the Ali Act, the State 
of California withheld a sanctioning fee from the WBA for an unrelated 
world title boxing match between Eric Morel and Kaowichit Denkaoesen 
held in California on October 12, 2002. The participants in that match 
had no relationship with either Mr. Kirk Johnson or Mr. Duva. In 
response to that action, the WBA wrote Mr. Rob Lynch, Executive Officer 
of the California Athletic Commission, on October 22, 2002, setting out 
the facts of the situation, including the results of the hearing held 
by the WBA in New York on October 16, 2002. A copy of that letter is 
attached. At the New York meeting, the WBA heard from representatives 
of Mr. Johnson and other heavyweight fighters, granted the ``appeal'' 
of Mr. Johnson, vacated the August ratings, and issued new ratings for 
the heavyweight division. No one either appealed, or requested an 
explanation of, the new ratings issued at the October 16, 2002 hearing.
    In a letter dated October 25, 2002, the California Athletic 
Commission wrote the WBA to inform it that the sanctioning fees that 
had been withheld on the October 12, 2002 fight in Anaheim, California 
between Eric Morel and Kaowichit Denkaosaen were being released to the 
WBA. The California Commission stated that, based on the information it 
had now been fully provided by the WBA and all parties, ``the WBA met 
their obligation on October 17, 2002.'' A copy of that letter is 
attached.
    As a follow up to the actions of the California Commission, and of 
Senator McCain in suggesting that the Department of Justice investigate 
the WBA, the WBA wrote Senator McCain, in a letter dated October 25, 
2002 (a copy of which is attached), explaining the situation and 
providing him a copy of the letter sent to Mr. Lynch. No response has 
ever been received from Senator McCain's office to that letter. 
Likewise, the WBA wrote Attorney General Ashcroft on October 25, 2002, 
also explaining the situation, and enclosing a copy of the October 22, 
2002 letter to the State of California. A copy of the letter to the 
Attorney General is attached.
    Five months later, the Department of Justice contacted the WBA to 
discuss the matter. The WBA responded orally and, in a letter dated 
April 1, 2003 (a copy of which is attached), the WBA responded to the 
Department of Justice in writing, and provided the Assistant Attorney 
General assigned to the matter some of the correspondence related to 
the issue.
    Finally, on June 5, 2003, the Department of Justice wrote the WBA 
(a copy of which is attached), informing it as follows:
        Because the WBA has provided an explanation of its rankings 
        determinations and has vacated the disputed August 2002 
        ratings, the Department of Justice has determined to take no 
        action with regard to the alleged violation.
    Despite these clear facts, one writer has characterized the WBA's 
actions unfairly and unfactually as follows:
        The WBA's failure to provide an explanation for the ratings 
        change violated the Ali Act, which, as previously mentioned, 
        requires sanctioning organizations such as the WBA to provide 
        public explanations for rating changes.
McCain, supra, 26.
    Contrary to such allegations, the Kirk Johnson ratings matter was 
handled by the WBA consistent with both federal law and the WBA's own 
required procedures.

    Mr. Stearns. Thank you.
    Mr. Spizler.

                  STATEMENT OF BRUCE C. SPIZLER

    Mr. Spizler. Mr. Chairman and members of the subcommittee, 
on behalf of the Association of Boxing Commissions and myself 
as chairman of its Legal Committee, it is indeed a cherished 
honor and a privilege to appear before you at this oversight 
hearing, hopefully not only to provide you with oversight but 
also insight into the regulation of professional boxing in the 
United States, and the dire need for additional legislative 
measures.
    From the first attempts to regulate the sport of 
professional boxing in the United States more than 100 years 
ago through to the present, professional boxing has been 
affected and infected by an environment replete with 
connivance, coercion and, all too often, corruption.
    A major factor contributing to such a sordid history is the 
surprising reality that the sport of professional boxing, 
unlike any other professional sport in the United States, has 
always been without a centralized league or other form of 
national oversight.
    This is of particular significance, considering that by its 
very nature the sport of professional boxing and its multiple 
components patently involve interstate, indeed global, 
commerce. Nonetheless, the regulation of the sport of 
professional boxing has been left to those individuals States 
and, more recently, also tribal organizations which 
legislatively have provided for its own boxing commission to 
regulate the sport in its own particular jurisdiction.
    Thus, considering that the authority of each regulatory 
component is restricted to its territorial borders, the 
effective regulation of the sport of professional boxing in the 
United States is only as strong as its weakest link.
    Two of the significant consequences of the absence of a 
national governing body are, No. 1, the opportunity for those 
seeking a lesser regulatory punch to pick and choose which 
regulatory body they wish to subject themselves to; and, two, 
private entities which independently control the rankings of 
boxers--that is, the standings, if you will--are not regulated 
by any State or tribal boxing commission.
    A primary example of venue shopping occurred just recently. 
Riddick Bowe, a former heavyweight champion of the world, 
retired from boxing in 1996 with perceived neurological 
problems. In the absence of uniform medical standards or a 
centralized medical registry, several months ago Mr. Bowe 
decided to make a comeback.
    He didn't seek a boxer's license in the State of his 
residence, Maryland, nor did he seek a boxer's license in the 
State of Nevada where 2 years earlier the Executive Director of 
the Nevada State Athletic Commission was quoted in a magazine 
publication that he did not, ``foresee Mr. Bowe receiving a 
boxer's license in Nevada,'' citing perceived neurological 
problems.
    Instead, Mr. Bowe applied for a boxer's license in the 
newly formed Potawatomi Tribal Boxing Commission located in the 
State of Oklahoma. Mr. Bowe was granted a boxer's license, and 
on September 25, he will be participating in a fight at an 
outdoor arena located on the parking lot adjacent to the 
Potawatomi's casino.
    A few notable examples of rankings by the unregulated 
sanctioning organizations: In 1999, during the course of a rare 
Federal criminal investigation and prosecution, FBI 
surveillance cameras captured a meeting in a motel room between 
Bob Lee, Sr., then the President of the IBF, Mr. Mack's client, 
and Doug Beavers, the Chairman of the IBF's Ratings Committee.
    During the course of this meeting, Mr. Lee and Mr. Beavers 
discussed the rating of a particular boxer. The discussion was 
brief. Making no inquiry as to the win-loss record of the 
boxer, the opponents he had faced, or the records of those 
opponents, the only inquiry Mr. Lee made was ``who is the 
promoter'' and ``how much.'' Upon revelation of this 
information by Mr. Beavers to Mr. Lee and the passage of a 
thick envelope, the named boxer was ranked by the IFB as No. 5 
in his weight division.
    During the course of this investigation, several notable 
boxing promoters acknowledged under oath that they, too, had 
paid monies to sanctioning organizations in exchange for the 
ranking of a boxer that they promoted, brazenly explaining, in 
effect, that such was the cost of doing business.
    Another example, this one involving the WBA, another one of 
Mr. Mack's clients. Kirk Johnson: Following his loss by 
disqualification to the then WBA heavyweight champion, John 
Ruiz, on July 27, 2002, well after the passage of the Muhammad 
Ali Boxing Reform Act--Kirk Johnson's WBA ranking was lowered 
from No. 5--lowered to No. 5, rather, and the same was 
reflected in the WBA's published rankings dated August 5, 2002.
    In the WBA's rankings the very next month, September 5, 
2002, Kirk Johnson was dropped in the WBA ratings, this time to 
tenth, although Mr. Johnson had not participated in a fight 
during that interim.
    In the same rankings, September 5, 2002, of the WBA, three 
other heavyweight boxers who were also inactive during that 
same period were advanced over Mr. Johnson, as well as being 
advanced over David Tua, with Mr. Johnson and David Tua both 
having defeated all three of the same boxers. All three of the 
boxers that were advanced over Johnson and Tua were promoted by 
Don King.
    Just recently, I received a copy of a letter from a member 
of a sanctioning organization's rating committee. It is his 
letter of resignation to the President of the sanctioning 
organization, a major sanctioning organization, I might add. In 
his letter of resignation he cites the rating improprieties of 
that sanctioning organization, citing that there were boxers 
rated who had lost 10 of their last fights. There were boxers 
who were ranked who had not had a contest in over a year. There 
were boxers who did not meet the criteria of having 15 matches 
and two wins over a rated fighter.
    One might ask--I see my time is up. So I will have to pass.
    [The prepared statement of Bruce C. Spizler follows:]

  Prepared Statement of Bruce C. Spizler, Chairman, Legal Committee, 
                   Association of Boxing Commissions

    Mr. Chairman and Members of the Subcommittee, it is, indeed, a 
cherished honor and privilege for me to appear before you, as a 
representative of the Association of Boxing Commissions, at this 
oversight hearing to, hopefully, provide you, not only with 
``oversight,'' but also ``insight'' into the regulation of professional 
boxing in the United States and the dire need for additional 
legislative measures. By way of background (as set forth in the 
attached curriculum vitae), I was a member of the National Association 
of Attorneys General Task Force on Boxing from 1998 through 2000; 
serving as the Chairman of the Task Forces' Subcommittee on Promoter/
Manager Application and Licensing Procedures and, in addition, as a 
member of the Task Forces' Subcommittee on Model Rules and Regulations 
Governing Boxing Bouts, Subcommittee on Model Boxer/Manager Contracts 
and Bout Contracts, and Subcommittee on Boxers' Bill of 
Rights.<SUP>1</SUP> In addition, I have served on the Legal Committee 
of the Association of Boxing Commissions since its creation in 2001 
and, recently, have been named as the Chairman of that Committee. 
Further, I have made presentations to the Association of Boxing 
Commissions at each of its annual conferences from 2000 to the present; 
and also have made similar presentations at each of the annual 
conferences of the American Association of Professional Ringside 
Physicians (an organization of 350 ringside physicians located 
throughout the United States) from 2002 to the present.
---------------------------------------------------------------------------
    \1\ Following hearings held at the Downtown Athletic Club in New 
York City, in May, 2000, The National Association of Attorneys General 
Task Force on Boxing issued a ``Report on Findings and 
Recommendations.'' Some of these ``findings and recommendations'' 
subsequently were addressed via the enactment of ``The Muhammad Ali 
Boxing Reform Act'' (codified as amendments to 15 USC  6301, et seq.), 
discussed infra.
---------------------------------------------------------------------------
                               BACKGROUND

    From the first attempts to regulate the sport of professional 
boxing in the United States more than 100 years ago through to the 
present, the ``sweet science'' has been affected, and infected, by an 
environment replete with connivance, coercion and, all-too-often, 
corruption. A major factor contributing to such a sordid history is the 
surprising reality that the sport of professional boxing, unlike any 
other professional sport in the United States, has always been without 
a centralized league or other form of national oversight. This is of 
particular significance considering that, by its very nature, the sport 
of professional boxing, and its multiple components, patently, involve 
interstate--indeed, global--commerce. The boxers themselves, throughout 
their careers, oft-times travel from state-to-state (and, periodically, 
to other countries) to compete in boxing contests against a multitude 
of opponents in a multitude of differing jurisdictions. Accordingly, 
other persons who participate in the sport of professional boxing--
including promoters, matchmakers, managers, trainers, and sanctioning 
organizations--all function via interstate commerce.
    Nevertheless, the regulation of the sport of professional boxing 
has been left to those individual states (and, more recently, tribal 
organizations) which, legislatively, have provided for its own boxing 
commission to regulate the sport in its own particular jurisdiction. 
Thus, considering that the authority of each regulatory competent is 
restricted by its territorial borders, the effective regulation of the 
sport of professional boxing in the United States is only as strong as 
its weakest link; leaving ``venue shopping'' as an effective tool for 
those seeking a lighter regulatory ``punch.'' The glaring absence of 
regulatory uniformity, together with the difficulty, and varying 
degrees, of effective enforcement, has lent itself to a perpetuation of 
the inequities, lack of integrity and, in some instances, non-adherence 
to health and safety measures for which the inherently dangerous sport 
of professional boxing, unfortunately, has become known.
    And through it all, with rare exception, the skilled athlete--the 
person literally risking ``life and limb'' and neurological and 
ophthalmological damage--tragically remains at the bottom of the 
proverbial ``food chain.''

                 FEDERAL LEGISLATIVE EFFORTS FOR REFORM

    In the aftermath of the criminal prosecution of the International 
Boxing Club (``IBC''), reputed to be a thinly veiled shell corporation 
of organized crime, several other boxing-related extortion and 
conspiracy prosecutions, and two high-profile boxer deaths, in 1960, 
the Senate Subcommittee on Antitrust and Monopoly conducted a four year 
investigation of the involvement of organized crime in 
boxing.<SUP>2</SUP> Three years later, Senator Kefauver of Tennessee, 
pressed for the passage of two boxing-related bills in Congress; 
however, other than legislation criminalizing fight-fixing, these 
legislative efforts were unsuccessful.<SUP>3</SUP>
---------------------------------------------------------------------------
    \2\ It is believed that organized crime ``controlled'' the sport of 
professional boxing at that time; engaging in fight-fixing, the bribing 
of boxing judges, the ``ownership'' of world champion boxers (forcing 
the boxers to surrender significant financial rights to their bouts), 
and the use of boxing as a front for gambling and money-laundering 
schemes.
    \3\ One bill would have established a ``National Boxing 
Commission,'' housed within the Department of Justice, to ``aid the 
States in their efforts to drive the racketeers out of boxing and, 
thus, end their monopolistic control.'' The other bill was designed to 
establish uniform federal health and safety standards to ``insure that 
only those men who are in proper physical condition (would) be allowed 
in the ring.''
---------------------------------------------------------------------------
    Numerous boxing-related bills were introduced in Congress between 
1983 and 1992; however, none of these measures garnered enough support 
to be enacted into law.<SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ 1983--(a) two bills, each providing for the creation of an 
``advisory commission'' to establish ranking guidelines and safety 
standards;
    (b) a bill providing for the creation of a commission, within the 
Department of Labor, to regulate safety standards and compensation for 
boxers;
    1985--a bill providing for the regulation of professional boxing 
through a nonprofit entity which would oversee state boxing commissions 
to ensure that these commissions set, and implemented, minimum health 
and safety standards;
    1987--a bill similar to the those introduced in 1983 and 1985;
    1992--two bills, one providing for the creation of a ``Professional 
Boxing Corporation'' and the other a ``United States Boxing 
Commission,'' to create a national data base for boxer and promoter 
information, as well as guidelines to protect the health and safety of 
boxers and ``to guard against corruption and unfairness''; and to have 
the power ``to prohibit matches if there (were) evidence of bribery, 
collusion, racketeering or extortion;
    1993--an ``amalgamation'' of the two bills introduced in 1992 
providing for the creation of a federal corporation to ``work with 
State boxing authorities to establish and enforce uniform rules and 
regulations for professional boxing in order to protect the health and 
safety of boxers and to ensure fairness in the sport''; to establish a 
national computer registry of boxing-related data; and to ``certify'' 
promoters, managers, trainers and others. In 1992, the Senates' 
Permanent Subcommittee on Investigations, at the behest of Senator 
William Roth (DE), conducted an investigation following a fight in 
Atlantic City, New Jersey, where International Boxing Federation (IBF) 
middleweight champion James Toney was awarded a split decision over 
challenger Dave Tiberi--a fight many believed had been won easily by 
Tiberi and described by one television broadcaster as ``the most 
disgusting decision'' he had ever seen. Following its hearing, 
encompassing the testimony of 130 witnesses, the Subcommittee 
concluded, inter alia, that a conflict of interest existed between 
state boxing regulators who, on the one hand, were interested in luring 
major boxing events to their bailiwick, considering the attendant 
economic impact, while, on the other hand, being charged with the 
responsibility of strictly regulating such bouts. In effect, the 
Subcommittee noted that, because strict enforcement tends to drive away 
valuable fights, boxing commissions had an incentive to ``relax'' their 
regulations.
---------------------------------------------------------------------------
    Finally, in October, 1996, Congress enacted legislation, entitled 
``The Professional Boxing Safety Act of 1996'' and codified as 15 USC  
6301, et seq, which, for the first time, provided for (1) minimal 
uniform health and safety standards to safeguard the well-being of 
boxers,<SUP>5</SUP> (2) conflict of interest prohibitions,<SUP>6</SUP> 
and (3) some enforcement authority regarding non-adherence to these 
measures.<SUP>7</SUP>
---------------------------------------------------------------------------
    \5\ For example: (1) a requirement that each professional boxer 
register with a boxing commission and procure a federal identification 
card containing the boxers' photograph and a personal identification 
number which must be presented to a boxing commission no later than the 
time of the weigh-in for a professional boxing match (to eliminate the 
use of ``ringers'' and the opportunity for a boxer to participate in 
different boxing matches under different names); (2) a physical 
examination of each boxer to determine if the boxer is ``physically fit 
to safely compete''; (3) reciprocal enforcement of medical suspensions; 
(4) the continuous presence of a physician at ringside; and (5) an 
ambulance, or medical personnel with appropriate resuscitation 
equipment, continuously on site.
    \6\ For example, prohibiting a member of a boxing commission from 
belonging to a sanctioning organization.
    \7\ Providing for the United States Attorney, upon referral, to 
seek injunctive relief or to bring a criminal prosecution.
---------------------------------------------------------------------------
    In 2000, Congress enacted the aforementioned ``Muhammad Ali Boxing 
Reform Act'' (as amendments to 15 USC  6301, et seq.) which addressed 
some of the exploitative economic practices attendant to professional 
boxing. These measures, for example: (1) prohibit ``coercive 
contracts'' <SUP>8</SUP> (2) mandate certain financial disclosures to a 
boxing commission by a sanctioning organization and a 
promoter;<SUP>9</SUP> (3) provide for a boxing commission to withhold 
any compensation due to a sanctioning organization if the sanctioning 
organization fails to publish its ranking criteria with the Federal 
Trade Commission (or, in the alternative, publish the ranking criteria 
on its Internet website), or fails to provide to a boxer, and publish 
on its website, an explanation for a change in the sanctioning 
organizations' ranking of the boxer; and (4) authorize the ``chief law 
enforcement officer of any State'' (i.e., the state Attorney General) 
to seek injunctive relief or obtain the payment of fines as otherwise 
provided in the Act.<SUP>10</SUP>
---------------------------------------------------------------------------
    \8\ A ``coercive contract,'' simply stated, is a ``promotional 
agreement,'' for a period of more than one year, which a boxer is 
required to enter into with a boxing promoter as a condition precedent 
to the boxers' participation in a boxing contest against another boxer 
who is under contract to the same boxing promoter. Such contracts often 
contain unconscionable terms detrimental to the boxer; nevertheless, a 
boxer may agree to sign such a contract, not only to secure the ability 
to participate in the particular fight, but also for fear of being 
``blackballed'' and, as a result, having his or her boxing career 
either thwarted or destroyed if he or she should decline to sign such a 
contract.
    \9\ For example, a sanctioning organization is prohibited from 
receiving any compensation for its sanctioning of a fight until it 
discloses to the relevant boxing commission a statement of: (a) all 
charges, fees and costs the sanctioning organization will access any 
boxer, and (b) all payments benefits and fees the sanctioning 
organization will receive from the promoter, the host of the event and 
any others. Similarly, a boxing promoter is prohibited from receiving 
any compensation in connection with a boxing event until the promoter 
discloses to the relevant boxing commission a statement of: (a) all 
fees, charges and expenses that the promoter will assess against the 
boxer (including a percentage of the boxers' purse and training 
expenses), and (b) all payments, gifts or benefits the promoter is 
providing to any sanctioning organization.
    \10\ A ``sanctioning organization'' is a private entity which 
``sanctions'' certain boxing contests as being a competition to win the 
sanctioning organizations' title, with a championship belt being 
awarded to the victor. Also, a sanctioning organization independently 
``ranks,'' or ``rates,'' boxers (typically, one through fifteen), 
providing a ``pecking order'' in which each such ranked boxer may move 
``up the ladder'' toward the ultimate goal of competing for the 
championship. Typically, a sanctioning organization is paid a 
``sanctioning fee'' by the promoter of the fight which is being 
``sanctioned,'' as well as a fee from the boxers who participate in the 
fight (usually 3%-5% of the each boxers' purse).
    The most prominent world sanctioning organizations are the World 
Boxing Council (``WBC''), based in Mexico; the World Boxing Association 
(``WBA''), based in Venezuela; the International Boxing Federation 
(``IBF''), based in New Jersey; and the World Boxing Union (``WBU''), 
based in England.
---------------------------------------------------------------------------
Current Problems--Examples
    Although significant strides were made upon the enactment of the 
1996 and 2000 federal legislation, the continued absence of a national 
oversight of the sport of professional boxing--providing for uniformity 
and effective enforcement of these, and other, provisions throughout 
the country--has resulted in a myriad of scenarios in which regulatory 
measures may be effectively circumvented. The following represent a few 
``high profile'' examples (with a supposition that there are numerous 
other instances which have not been ferreted out).
A. ``Venue Shopping''
1. Mike Tyson v. Lennox Lewis [for the ``undisputed'' (i.e., WBC, WBA 
        and IBF) heavy-weight championship of the world]
    In 2002, in the aftermath of Mike Tysons' infamous maiming of 
Evander Holyfield via the biting off of a piece of Mr. Holyfields' ear 
during a world heavy-weight championship fight,<SUP>11</SUP> as well as 
other egregious behavior both in and out of the ring, Mr. Tyson 
submitted an application to the Nevada Athletic Commission for 
licensure as a boxer.<SUP>12</SUP> After the Nevada Athletic Commission 
conducted a hearing, but prior to the application being formally 
denied, Mr. Tyson withdrew his application to the Nevada Athletic 
Commission, and, as a result, the matter in Nevada became moot. Soon 
thereafter, however, Mr. Tyson applied for a boxers' license in a 
number of other jurisdictions. Subsequently, several state boxing 
commissions elected to grant Mr. Tyson a boxers' license including 
Georgia, Washington, D.C. and ------------------------.<SUP>13</SUP> 
From among the array of jurisdictions which elected to grant Mr. Tyson 
a boxers' license, the promoters of the Tyson-Lewis fight selected 
Tennessee as the state in which the fight would be held; and, as a 
result, the Executive Director of the Tennessee Boxing and Racing Board 
(which functions strictly in an ``advisory capacity'') had thrust upon 
him the daunting task of regulating what, at that time, was deemed to 
be ``the richest heavy-weight championship fight in history.'' 
<SUP>14</SUP>
---------------------------------------------------------------------------
    \11\ Following this incident, and after conducting a hearing, on 
July 9, 1997, the Nevada Athletic Commission revoked Mr. Tysons' 
boxers' license and imposed a $3 Million fine for ``fouling, 
unsportsmanlike conduct and conduct that reflects discredit to 
boxing.''
    \12\ A championship bout between Mr. Tyson and Lennox Lewis, to be 
held in Las Vegas, already had been announced by boxing promoters.
    \13\ After Mr. Tyson withdrew his license application in Nevada, 
the Association of Boxing Commissions, suspecting that Mr. Tyson may 
seek licensure elsewhere, sent a ``press release'' to each of its 
member boxing commissions suggesting that, if Mr. Tyson applied for a 
boxers' license in their jurisdiction, the boxing commission should 
examine the attendant ``facts and circumstances'' regarding the 
propriety of such licensure and should not be swayed by the economic 
impact such a fight may bring to their state. [Projections, at that 
time, regarding the generation of revenues from a Tyson-Lewis fight 
approximated $100 Million.]
    \14\ In January, 2002, at a press conference to announce the fight 
between Tyson and Lewis in Tennessee, Mr. Tyson, during a scuffle, bit 
the leg of Mr. Lewis.
---------------------------------------------------------------------------
2. Hasim Rahman v. Mario Cawley
    As the second fight of his ``comeback,'' Hasim Rahman (the former 
``undisputed'' heavy-weight champion of the world with a record of 36 
wins and 5 loses) was scheduled to fight on April 16, 2004 at a venue 
in Dover, Delaware--Delaware being a state which does not have a boxing 
commission. As is authorized under the current federal law (15 USC  
6303), the boxing promoter requested the Pennsylvania Athletic 
Commission (``PAC'') to regulate the fight (the PAC having performed 
such a function at the same venue in Delaware on several previous 
occasions); and the PAC agreed. When the Executive Director of the PAC 
learned that Mr. Rahmans' opponent for this fight was Mario Cawley, who 
had lost eleven of his last twelve fights (the one win coming by way of 
disqualification), and with the promoter declining to provide a 
different opponent, the PAC withdrew and declined to regulate the 
event. In response, the promoter contacted the ``Administrator'' of the 
Virginia Boxing and Wrestling Commission who approved the Rahman-Cawley 
match-up and regulated the Rahman-Cawley fight in Delaware. Of little 
surprise, Rahman knocked out Cawley in the second round.<SUP>15</SUP>
---------------------------------------------------------------------------
    \15\ In addition to the problem of ``venue shopping,'' the 
regulation of professional boxing in a state without a boxing 
commission raises other major concerns; e.g., (1) the liability of the 
regulators who are functioning outside the protections of their, 
erstwhile, sovereign immunity; and (2) the contravention of a states' 
desire not to authorize boxing in its jurisdiction.
---------------------------------------------------------------------------
3. Riddick Bowe
    Following the second of two boxing contests in 1996 between Riddick 
Bowe and Andrew Golota, both contests being described as ``brutally 
draining'' and ``foulfests,'' Mr. Bowe, in a post-bout interview, 
``turned molasses-tongued before the worlds' eyes'' <SUP>16</SUP>--
indicating possible neurological damage--and Bowe ``retired'' from 
boxing. In 1998, Mr. Bowe was charged with federal kidnaping after he 
abducted his estranged wife and their five children from Charlotte, 
North Carolina with the intention of transporting them to his home in 
Maryland. Although facing up to 10 years of imprisonment, pursuant to a 
plea bargain, the judge sentenced Mr. Bowe to 30 days, citing Mr. 
Bowes' debilitation from head injuries as the basis for his lenient 
sentence.
---------------------------------------------------------------------------
    \16\ Mayo, The Ring Magazine, ``Whos' Fit To Fight?'', March, 2002 
at p. 76.
---------------------------------------------------------------------------
    When it was rumored that Mr. Bowe was contemplating a ``come-
back,'' the Executive Director of the Nevada Athletic Commission stated 
to a reporter that he did not ``foresee [Bowe] receiving a license in 
Nevada,'' citing perceived neurological problems. Accordingly, Mr. Bowe 
did not apply for a boxers' license in Nevada, nor did he apply for a 
boxers' license in Maryland (the state in which he resides). Instead, 
several weeks ago, Mr. Bowe applied for, and was granted, a boxers' 
license by the Potawatomi Tribal Boxing Commission, located in the 
state of Oklahoma.<SUP>17</SUP> Mr. Bowe is scheduled to participate in 
a boxing contest on the parking lot of the Potawatomis' casino on 
September 25, 2004.
---------------------------------------------------------------------------
    \17\ The newly formed Potawatomi Tribal Boxing Commission is not a 
member of the ABC.
---------------------------------------------------------------------------
B. Sanctioning Organizations
1. Rankings
    As noted above (n.10), each sanctioning organization independently 
``ranks,'' or ``rates,'' boxers (typically, one through fifteen), 
providing a ``pecking order'' in which each such ranked boxer may move 
``up the ladder'' toward the opportunity to compete for the 
championship. Considering that a ``championship belt'' is the end to 
which every boxer aspires, and that a ranking assigned to a boxer 
constitutes the road to such glory, a sanctioning organization is all 
powerful (considered by some as the ``engine'' which generates power 
and money in the sport of professional boxing). Yet, sanctioning 
organizations are not licensed by any boxing commission and, as a 
result, are not subject to the jurisdiction of any boxing commission.
    a. Bob Lee, Sr. (former President of the International Boxing 
Federation)--In 1999, during the course of a rare federal criminal 
investigation and prosecution, FBI surveillance cameras captured a 
meeting in a motel room between Bob Lee, Sr., then the President of the 
International Boxing Federation, and Doug Beavers, the Chairman of the 
IBFs' Ratings Committee (who was also, at that time, the Executive 
Director of the Virginia Boxing and Wrestling Commission).<SUP>18</SUP> 
During the course of this meeting, Mr. Lee and Mr. Beavers discussed 
the rating of a particular boxer. The discussion was brief. Making no 
inquiry as to the win-loss record of the boxer, the opponents he had 
faced, the records of such opponents or any other criteria relevant to 
the propriety of an appropriate rating, Mr. Lee simply asked, ``who is 
the promoter'' and ``how much.'' Upon the revelation of this 
information by Mr. Beavers to Mr. Lee and the passage of a think 
envelope from Mr. Beavers to Mr. Lee, the named boxer, not previously 
ranked by the IBF, was ranked as ``No. 5'' in the relevant weight 
division.<SUP>19</SUP>
---------------------------------------------------------------------------
    \18\ Facing criminal charges, Mr. Beavers had agreed to cooperate 
with the FBI.
    \19\ Although found not guilty of bribery and racketeering charges, 
Mr. Lee was convicted of lesser included offenses (i.e., money 
laundering, tax evasion and interstate travel to aid in racketeering) 
and was sentenced to a substantial term of imprisonment. In light of 
this investigation and prosecution, the IBF was placed under the 
auspices of a federal monitor who continues to be in place.
---------------------------------------------------------------------------
    During the course of the investigation, several notable boxing 
promoters acknowledged, under oath, that they, too, had paid monies to 
a sanctioning organization in exchange for the ranking of a boxer they 
promoted; brazenly explaining, in effect, that such was the cost of 
doing business.
    b. Kirk Johnson (Boxer)--Following Kirk Johnsons' loss (by 
disqualification) to, then, World Boxing Association (``WBA'') heavy-
weight champion John Ruiz on July 27, 2002, Kirk Johnsons' WBA ranking 
was lowered to No. 5, and the same was reflected in the WBAs' published 
rankings dated August 5, 2002. In the WBAs' rankings dated September 5, 
2002, however, Kirk Johnson was dropped again in the WBA rankings, this 
time to tenth; although Mr. Johnson had not participated in a fight 
during the interim. In the same WBA rankings of September 5, 2002, 
three other heavy-weight boxers, whom also were inactive during this 
period, were advanced over Mr. Johnson, as well as being advanced over 
David Tua, each of whom previously had defeated the three advanced 
boxers. All three of the boxers advanced in these rankings were 
promoted by Don King.<SUP>20</SUP>
---------------------------------------------------------------------------
    \20\ This matter was brought to the attention of the United States 
Attorney General by the President of the ABC, and, by separate letter, 
Senator John McCain. Pursuant to 15 USC 6307c., the California State 
Athletic Commission (the jurisdiction in which the next WBA sanctioned 
fight was to occur) ordered that all sanctioning fees that were to be 
paid to the WBA in regard to the October 12, 2002 WBA-sanctioned fight 
were to be withheld in light of the WBA failing to respond to Kirk 
Johnsons' request for information as to the basis for the change in his 
ranking. Soon thereafter, the WBA revised its September 5, 2002 
rankings, restoring Kirk Johnson to his No. 5 ranking. No further 
action was taken.
---------------------------------------------------------------------------
    c. Graciano Rocchigiani--In 1998, the WBC declared its light-
heavyweight title vacant after Roy Jones, Jr., the WBC light-
heavyweight champion at the time, considered abandoning the crown to 
become a heavyweight. Graciano Rocchigiani, a boxer from Germany, 
signed to fight American Michael Nunn for the vacant belt. On March 21, 
1998, Mr. Rocchigiani won the fight (by a split decision) to become the 
WBC light-heavyweight champion. However, approximately three months 
later, Roy Jones, Jr. decided to return to the light-heavyweight ranks, 
and the WBC restored Mr. Jones (far more renowned than Mr. Rocchigiani) 
to his position as the WBC light-heavyweight champion. Unlike most 
boxers, Mr. Rocchigiani elected to challenge the actions of the 
sanctioning organization and, upon securing the services of legal 
counsel, filed a multi-million dollar law suit against the WBC in 
September, 1998 claiming that he had been cheated out of his light-
heavyweight championship and all of the financial rewards attendant to 
such a title. Four years later, on September 20, 2002, a Manhattan jury 
returned a verdict in favor of Mr. Rocchigiani in the amount of $7.8 
Million in compensatory damages and another $20 Million in punitive 
damages.
    More recently, the WBC filed for Chapter 7 bankruptcy, claiming the 
Rocchigiani judgment exceeded the WBCs' total assets.
2. Selection of Officials
    On May 13, 2000, boxers Roy Jones, Jr. and Richard Hall 
participated in a fight in Indiana, competing for the WBC/IBF/IBO light 
heavy-weight world championships with the fight being televised world-
wide. Prior to the fight, the Indiana Boxing Commission received input 
from all three of the sanctioning organizations regarding the selection 
of officials (i.e., a referee and three judges). The Indiana Boxing 
Commission, diligently ensuring that all of the officials who would 
either judge or referee the fight were experienced and competent, then 
announced the identity of the selected officials to the public. Two 
days before the fight, the Commission received a fax from the WBC 
stating that they would be assigning a judge (David Harris), other than 
the ones already selected, to officiate at the fight. The Commission 
did not have adequate time to properly determine the credentials of 
David Harris and did not agreed to substitute him for one of the judges 
already selected. Nevertheless, on the night of fight, Mr. Harris (from 
the state of Texas) came to the arena in Indiana where the fight was 
being held. When the Commission members present at the arena balked at 
the notion of changing judges at this ``eleventh hour,'' a WBC 
supervisor at the fight threatened to ``pull'' the sanction of the WBC 
and ``strip'' Roy Jones, Jr. of his WBC title unless the substitution 
of Mr. Harris for one of the previously assigned judges was made. 
Facing this undue pressure, the Commission members succumbed and, 30 
minutes prior to the live broadcast of the fight, the substitution was 
made.
    These actions by the WBC prompted a letter, dated May 18, 2000, 
from Senator John McCain, Senator Richard H. Bryan and Representative 
Michael G. Oxley to Jose Sulaiman, President of the WBC, condemning 
such actions as . . . yet another example that the organizations which 
rank boxers for a fee often undermine the sport.''
    The above notwithstanding, two years later, the WBC again engaged 
in similar activity. The WBC had agreed to sanction a fight between its 
welterweight champion, Vernon Forrest, and former welterweight champion 
Shane Mosley to be held, ironically, in the same state of Indiana on 
July 20, 2002. Wary of the events which had taken place two years 
earlier, the Indiana Boxing Commission, through a litany of 
correspondence, came to an agreement with the WBC in early June, 2002 
as to the individuals who would serve as the officials (one referee and 
three judges) for the fight. The Indiana Boxing Commission selected the 
referee and one judge from a list of officials ``appointed'' by the WBC 
and two judges from Indiana with considerable world title fight 
experience. Mr. Forrest and Mr. Mosley reviewed the selected officials 
and both agreed to their participation. Nevertheless, several weeks 
later, the WBC threatened to withdraw its sanction of the fight unless 
the Indiana Boxing Commission selected all of the officials from the 
WBCs' ``appointed'' lists--either the one originally submitted, or a 
newly submitted revised ``appointed'' list (which contained the name of 
one of the Indiana-based judges who had already been selected). In 
response, the Indiana Boxing Commission agreed to substitute one of the 
judges it had selected from the original WBC ``appointed'' list with a 
judge from the WBCs' revised ``appointed'' list, but left in place the 
two Indiana-based judges (one of whom, as noted, was on the WBC revised 
``appointed'' list). Jose Sulaiman, the President of the WBC, and a 
representative of the Indiana Boxing Commission verbally agreed as to 
the new team of officials selected to participate in the fight; and, 
upon being notified of the changes, neither boxer objected. 
Nevertheless, five days before the event, a representative of Vernon 
Forrest (the WBC champion) voiced strong opposition to the retention of 
the Indiana-based judge who was not on the revised WBC ``appointed'' 
list. Finally, again succumbing to pressure, two of the three Indiana 
Boxing Commission members agreed to substitute the Indiana-based judge 
who was not on the WBC revised ``appointed'' list with a judge 
designated by the WBC (Tony Castellano, who had judged a number of 
bouts for the WBC, but had not judged a fight in the United States 
since 1997).
    The actions of the WBC in 2002 prompted another letter from Senator 
McCain to the President of the WBC, stating, among other things, that 
``. . . the WBC overstepped its role as a sanctioning organization and 
attempted to supersede the powers of a state regulatory agency.''

                 THE ASSOCIATION OF BOXING COMMISSIONS

    The Association of Boxing Commissions (``ABC'') was incorporated in 
1993 as a non-profit organization.<SUP>21</SUP> It is comprised of 58 
state and tribal boxing commissions located throughout the United 
States, the U.S. Territories and Canada. The ABC is funded, and derives 
its operating revenues, solely from the minimal membership dues of its 
member commissions, the sale of ABC apparel to its members, and a 
silent auction held at its annual conference.<SUP>22</SUP> Its 
functions are performed primarily by its officers, regional directors 
and committee members. Each of these individuals are employed, directly 
or indirectly, by their respective state or tribal boxing commission 
and each serves strictly on a voluntary basis, receiving no 
compensation for the time and effort extended on behalf of the ABC.
---------------------------------------------------------------------------
    \21\ The ABC was first created informally, ten years earlier, in 
1983.
    \22\ The total, current assets of the ABC is approximately 
$50,000.00.
---------------------------------------------------------------------------
    Unfortunately, however, notwithstanding the ABCs' noble goals and 
intentions, and notwithstanding its working members' efforts and 
stalwart dedication, the absence of funding, together with the absence 
of adequate authority, hinders and thwarts the ABCs' ability to 
effectuate uniformity or effectively enforce the law. The following 
scenario is demonstrative.
    Recently, it has come to the attention of the ABC that referees and 
judges, licensed by the various state and tribal boxing commissions who 
officiate at boxing contests in those various states and on tribal 
lands, concomitantly, are holding office in the various sanctioning 
organizations. In one glaring example, one of the judges participating 
in Oscar De La Hoya-Shane Mosley fight held in Las Vegas on September 
13, 2003, sanctioned by the WBA, was, at that time, the Chairman of the 
WBAs' Ratings Committee. In effect, the individual was judging and 
(absent a knock-out or disqualification) determining the winner of a 
fight involving the very boxers he may potentially rank. In another 
example, a judge licensed in Florida, was the Chairman of the WBAs' 
Officials' Committee. The ABC sent a letter to each of these 
individuals, as well as others similarly situated, in which it was 
noted that holding office in a sanctioning organization and, at the 
same time functioning as a judge or referee ``appeared'' to be in 
violation of the ``Conflict of Interest'' provision of the federal law, 
and ``may'' result in appropriate action being taken.<SUP>23</SUP> 
Thereafter, both of the aforesaid individuals resigned from the 
respective offices they had held with the WBA.
---------------------------------------------------------------------------
    \23\ The ``Conflict of Interest'' provision of the current federal 
law states, in pertinent part:
    ``No member or employee of a boxing commission, no person who 
administers or enforces State boxing laws, and no member of the 
Association of Boxing Commissions may belong to, contract with, or 
receive compensation from any person who sanctions, arranges or 
promotes professional boxing matches or who otherwise has a financial 
interest in an active boxer . . .'' 15 USC  6308(a) (emphasis added).
    A person engaging in such conduct may be enjoined from doing so via 
an action brought by the Attorney General of the United States or the 
chief law enforcement officer of state; or, if a person ``knowingly'' 
engages in such conduct, upon conviction, the person may be imprisoned 
for not more than one year or fined not more than $20,000.00, or both. 
15 USC  6309(a), (b)(3), and (c).
---------------------------------------------------------------------------
    The WBA has threatened to bring a law suit against the ABC, 
challenging the ABCs' interpretation of the federal law, unless the ABC 
expressly retracts its position and withdraws the letters it had sent. 
The ABC has declined and continues to adhere to its position.

  THE PROFESSIONAL BOXING AMENDMENTS ACT OF 2004 (S. 275 / H.R. 1281)

    This legislation, having passed the Senate with unanimous consent, 
provides for the much needed, and long-overdue, uniformity and 
enforcement mandatory to the effective regulation of the sport of 
professional boxing in the United States. It not only strengthens 
existing federal boxing laws, but, for the first time in the history of 
regulating the sport of professional boxing in this country, provides 
for a national oversight via the creation of a ``United States Boxing 
Commission'' (``USBC'') within the Department of Commerce.<SUP>24</SUP> 
In short, through uniformity, ``venue shopping'' is eliminated; and 
through enforcement, the existing laws are given ``teeth.'' It is 
important to note that the autonomy of the state and tribal boxing 
commissions remains in tact. Indeed, one of the specific functions of 
the USBC enumerated in the Act is to work with state and tribal boxing 
commissions; and, as expressly mandated, the USBC is to consult with 
the boxing commissions, through the ABC, regarding any minimal 
standards (medical or contractual) proposed by the USBC.<SUP>25</SUP> 
Moreover, the Act also expressly provides that nothing prohibits a 
boxing commission from exercising any of its powers, duties or 
functions to the extent they are not inconsistent with the 
Act.<SUP>26</SUP>
---------------------------------------------------------------------------
    \24\ A synopsis of the Bill, prepared by this writer, is attached 
hereto.
    \25\ It should also be noted that, while the terms of the PBAA of 
2004 provide for the approval of the USBC for every professional boxing 
match in the United States, the PBAA of 2004 also provides that such 
approval is presumed unless:
    (a) the match is a championship match, or one of 10 rounds or more;
    (b) the match is one in which one of the boxers has suffered 10 
consecutive defeats or has been knocked out (or ``technically knocked 
out'') five consecutive times; or
    (c) the USBC is informed of alleged violations of the federal law, 
and the USBC advises the supervising boxing commission that it does not 
approve.
    Even in the above instances where the USBC approval is not 
presumed, the USBC may delegate its approval authority to the 
supervising boxing commission.
    \26\ It is important to understand that the ``premier'' side of 
boxing, comprised of famous boxers and promoters sharing in purses 
reaching into the millions of dollars, is far different than the vast 
majority of professional boxing events featuring unknown journeymen 
(oft-times referred to as ``club boxers'') who participate for small 
purses before small crowds.
---------------------------------------------------------------------------
    Among other things, the PBAA of 2004 provides for:

 the licensing and regulation of sanctioning organizations
 the USBC to develop guidelines for objective and consistent written 
        rating criteria which each sanctioning organization must adopt 
        and follow; as well as a requirement that a sanctioning 
        organization provide the USBC with a copy of a ratings change, 
        and an explanation for the change, under the penalty of perjury
 the licensing of all judges and referees by the USBC who participate 
        in championship fights or those of 10 rounds or more
 the selection of all referees and judges by the boxing commission 
        supervising the fight
 a repeal of the current provision allowing for boxing in states 
        without a boxing commission
 the development of minimal health and safety standards (including a 
        requirement that health insurance be provided to each boxer 
        covering injuries sustained in the ring)
 the development of minimal contractual provisions for: (1) bout 
        agreements; (2) boxer-manager agreements; and (3) promotional 
        agreements
 the establishment and maintenance of a centralized medical registry 
        by the USBC (or a party certified by the USBC to do so); the 
        medical registry to contain comprehensive medical records, 
        including suspensions and denials, for every licensed boxer
 the posting of a bond or other form of security (to ensure, among 
        other things, the payment of purse monies due and owing to a 
        boxer)
 the USBC to conduct investigations of alleged violations, including 
        the issuance of subpoenas and the granting of limited immunity 
        (in order to compel testimony that may be self-incriminating)

                               CONCLUSION

    The history of the sport of professional boxing in the United 
States is, indeed, a sordid one, fraught with abuses at almost every 
turn. A major contributing factor in perpetuating professional boxing 
as the ``red light district of sport'' is the absence of uniformity and 
effective enforcement resulting, in part, from the continual absence of 
any form of centralized league or national oversight--present in every 
other major sport in the country. For more than 40 years, members of 
Congress have proposed various forms of a national oversight of the 
sport without success; leaving unanswered the rhetorical questions: 
``If not us, then who; if not now, then when.''

    Mr. Stearns. By unanimous consent, we will put all of your 
opening statement in the record.
    Mr. Spizler. Thank you very much, Mr. Chairman.
    Mr. Stearns. Thank you.
    Mr. Thomas. Welcome.

                 STATEMENT OF JAMES J. THOMAS II

    Mr. Thomas. Thank you. I am a bit of an unusual member of 
the----
    Mr. Stearns. I am going to have you pull the mike over.
    Mr. Thomas. I am a bit of an unusual member of the boxing 
business community in that I am a senior partner in a major 
national law firm and came to boxing as an outsider 14 years 
ago through happenstance. I was engaged Evander Holyfield to 
represent him in what we call boxing litigation, which is all 
too prevalent, against Don King and Mike Tyson and the World 
Boxing Council.
    That led to a relationship where I got deeply involved into 
the sport. I have represented Evander for almost 14 years as 
attorney and the last 9 years as de facto manager and attorney, 
and over the last 6 years I have represented numerous other top 
fighters as attorney and manager.
    I represent fighters. That is all I do in the sport of 
boxing. I believe that the men, and now women, who get in the 
ring deserve to be the primary beneficiaries of this sport, and 
that is unfortunately not the case.
    I have four points I would like to make. As my written 
materials indicate, I believe there is a big difference between 
promoters and managers and their duties to fighters. Promoters 
have no fiduciary duty to fighters. They are allowed to pay the 
fighters as little as they want. The managers have a very 
strict, very firm, strong fiduciary duty to fighters.
    The Ali Act did some good things to regulate promoters and 
require disclosures from them. The problem is that there are a 
lot of good promoters. Some of the bad promoters, though, 
exploit fighters, and a lot of that is because the managers 
allow them to do it because of the relationships between the 
promoters and the managers.
    As Mr. English indicated, the Ali Act tries to construct a 
firewall. That is the most poorest firewall you can imagine. It 
is simply not enforced.
    Point No. 2: The Ali Act requires disclosures from 
promoters. However, there are numerous disclosures they need to 
make, and only one subsection says they need to be made under 
the penalty of perjury. So what good are the others if there is 
no penalty? Why one should be under oath and the others should 
not? Did the others not count? Why were they in the 
legislation?
    Second, there are no disclosures by managers. Managers 
should be disclosing to their fighters every single source of 
income they get from a fight from anybody, and every 
relationship that manager has with anybody, specifically 
including the promoter, television networks, and everybody 
else. That who is supposed to be in the sport protecting the 
fighters, and they are not regulated properly.
    We need a national organization to do that.
    Point No. 3: Evander Holyfield and the other--Oscar de la 
Hoya and others can afford to have legal counsel. We need to 
find a way to provide legal counsel for fighters in this sport 
for all fighters in this sport.
    You can make all the rules you want to make, but the 
fighters are not going to be protected if they don't understand 
what their rights are and understand how to enforce them. 
Frankly, right now under the law, I don't know how to enforce 
them, because there is no enforcement mechanism.
    But we need to find a way, and I recommend that we consider 
making all contracts entered into by boxers voidable by the 
boxer unless it was first reviewed by an attorney on the 
boxer's behalf. That would put the onus on the powerful parties 
in the sport to make sure that fighter was properly represented 
and knew what he was signing when he signed it.
    What happens in this sport too much is that somebody will 
put a paper in front of a fighter and say I got $10,000 in my 
pocket; sign it now or never. The boxer needs the money and 
signs, and he is stuck with something he doesn't understand. We 
got to do something about that, and legal counsel can do it, 
and Evander Holyfield agrees with that.
    Point No. 4: There are a small group of powerful people in 
this sport who are responsible for a disproportionate portion 
of the ills and wrongs in this sport. However, there are also a 
pretty significant number of what I call the good guys in this 
sport. There are some honest people with integrity and 
competence who are trying to clean it up, and have been since I 
got in it 14 years ago.
    When I got in the sport 14 years ago, I looked around and 
saw some things that made no sense to me, and I was told over 
and over again, you don't understand this sport. Well, guess 
what? Now I do understand, and those same things are still 
wrong.
    I saw men, and I still see them now, and after 14 years of 
the good guys trying I reach out to the United States Federal 
Government and say we can't do it without you. We need your 
help. We have tried and tried and tried, and we cannot get 
there without help.
    I was in the situation where my fighter was entitled to 
disclosures from a promoter. The promoter's agent showed me 
some numbers that were purported to be the numbers, and this is 
a big fight with millions and millions of dollars--purported to 
be the numbers that the promoter received.
    I said, may I have a copy? The answer was, no, you may not 
have a copy; the Ali Act doesn't say you get a copy. It says we 
need to disclose; we have disclosed--allowing the promoter the 
latitude later when I proved those numbers were false to say 
that isn't what I showed you, and I have no proof of what was 
shown to me.
    Now I sure wish I had somewhere to go with that. I wish I 
had a United States Boxing Commission where I could take that. 
You know what? If there had been a United States Boxing 
Commission, that wouldn't have happened, because the promoter 
would have known he couldn't get away with it. We need Federal 
legislation to clean this sport up.
    Thank you.
    [The prepared statement of James J. Thomas II follows:]

                Prepared Statement of James J. Thomas II

    All good fighters know how to protect themselves inside the ring, 
but many fighters have little or no knowledge of how to protect 
themselves outside the ring. The true stories of fighters being taken 
advantage of are too numerous to count. Most of the blame for these sad 
stories is properly placed upon unscrupulous people who use superior 
power or knowledge or experience to harm fighters, but some of the 
responsibility must rest upon the shoulders of the fighters themselves. 
Just as fighters have a responsibility to take the time and effort to 
learn how to protect themselves in the ring, they have the same 
responsibility to take the time and effort to learn how to take care of 
themselves outside the ring.
    For more than a decade, I have been fighting to protect the rights 
of Evander Holyfield and other fighters. Evander is well known as one 
of the most successful fighters in history, not only inside the ring, 
but outside as well. I realize that Evander has financial resources 
available to him that many other fighters do not have and that he can 
afford to hire whoever he thinks is the best in each position on his 
team, and I know that is not the case for many other fighters. But I 
also believe there are some rules of self-defense in business matters 
that any fighter can follow that will help him or her avoid becoming 
one more sad story, regardless of financial resources. The one thing 
all of my suggested rules have in common is that they are all aimed at 
helping the boxer surround himself with the right people. Just as a 
fighter relies upon his cornermen in the ring, outside the ring the 
fighter's defense relies heavily on having the right people in his 
``corner''.
Rule No. 1: Understand the difference between a manager and a promoter 
        and what their respective duties and obligations are.
    Many people, not just fighters, are confused about the differences 
between the duties and obligations of a manager, and the duties and 
obligations of a promoter. There are fundamental differences that must 
be thoroughly understood for a boxer to be properly protected and have 
appropriate expectations.
    A fighter's manager is typically the fighter's primary negotiating 
agent and representative. A manager typically has what is called a 
``fiduciary duty'' to his fighter, which means the manager must act in 
the fighter's best interest, and the fighter has the right to trust the 
manager to work to advance and protect the interests of the fighter. 
One of a manager's most important functions is to do his best to 
negotiate on behalf of the fighter to obtain for the fighter as much 
compensation as possible for each bout. In most cases, that means the 
manager is negotiating for the fighter and against the promoter of the 
fight, who is typically attempting to pay the least the promoter can 
pay for the services of the fighter. In may ways, the manager-fighter 
relationship is similar to the attorney-client relationship in that 
both managers and attorneys are obligated to fight on behalf of their 
``clients'', and to avoid conflicts of interest as much as possible. 
Typically, a manager's compensation is, and should be, a percentage of 
the fighter's compensation so that the manager's financial interests 
are completely aligned with the fighter's financial interests.
    The relationship between a fighter and a promoter is fundamentally 
different from the relationship between a fighter and a manager. 
Whereas the relationship between a fighter and his manager is primarily 
a personal relationship based upon trust, the relationship between a 
fighter and a fight promoter is primarily a business relationship based 
upon economics. The promoter's function is entirely different from the 
manager's function. The promoter is the producer of the boxing event, 
not the representative of any of the participants. It is entirely 
proper for a promoter to attempt to maximize his own profit from each 
fight promotion, because the promoter is supposed to be the party that 
takes the financial risk of the fight promotion. Each fight promotion 
has projected revenues (reward) and projected expenses (risk). The 
promoter increases his profit potential and decreases his risk of loss 
by maximizing revenues and minimizing expenses. The primary way the 
promoter increases revenues is by ``promoting'' the fight by attempting 
to create interest in the fight to maximize sales of tickets and 
television viewership. By far, the greatest expenses of a fight 
promotion are the purses paid to the fighters. Consequently, the 
primary way a promoter minimizes expenses so as to maximize profit is 
to pay each fighter as little as possible. The bottom line is that 
there is a limited ``pot'' of net revenues (total revenues minus 
expenses) available from each fight promotion. That ``pot'' is divided 
among the promoter and the fighters based upon the bout agreements 
entered into between the promoter and the fighters. The more the 
fighter is paid, the less profit the promoter makes, and the less the 
fighter is paid, the more profit the promoter makes.
    There is absolutely nothing wrong with this economic model. It 
reflects the fundamental American economic ideal of free enterprise, 
but it also demonstrates that the economic interests of the promoter 
and the fighter with respect to any given fight are diametrically 
opposed. A full understanding and acceptance of this reality is the 
first and necessary step for a fighter to take in protecting himself 
outside the ring. No matter how many times a promoter calls himself a 
fighter's promoter, the fighter should not look to the promoter to 
protect his economic interests. That is the fighter's manager's job. 
The promoter's job is to promote the fight event, and, absent a 
contractual obligation to pay more, he has every right to try to make 
as much profit for himself as possible by paying the fighter as little 
as the fighter and his manager will accept.
    As a result of the fundamental conflict of economic interests 
between the promoter and the fighter, the law generally does not impose 
upon a promoter a ``fiduciary duty'' to the fighter. In other words, 
the fighter has no legal right to expect the promoter to protect the 
interests of the fighter. The law does typically impose upon the 
promoter an implied duty to perform his contractual obligations to the 
fighter in good faith and in a fair manner, but beyond that implied 
duty, the law typically does not create duties of the promoter to the 
fighter beyond the duties set forth in the promotional contract between 
the fighter and the promoter.
    All of this is not to say or imply that a good promoter cannot help 
advance the career of a fighter signed to the promoter. A promoter 
certainly does have that ability, and many promoters have done so for 
many fighters. Although the economic interests of the promoter and the 
fighter are in conflict with respect to the expense side of a 
promotion, in the long-term, the interests are somewhat aligned on the 
revenue side. The more a promoter can do to create interest in a 
fighter signed to the promoter, the more revenue the promoter can 
generate in future events and the more the promoter can afford to pay 
the fighter while still making a fair profit. On this aspect of the 
promotional relationship, the promoter and manager need to work 
together as a team on behalf of the fighter because the economic 
interests of the fighter, his manager, and the promoter are all 
advanced by building the popularity of the fighter, which ultimately 
increases the ``pot''.
    In summary, there are fundamental differences between the 
relationship between a fighter and his manager and the relationship 
between a fighter and the promoter who has the promotional rights to 
the fighter's fights. These differences do not make managers better or 
worse than promoters, they simply mean that the fighter needs to look 
for different things from the two. A promoter is fulfilling his 
obligations to a fighter when he is living up to his promotional 
contract. A manager is doing his job when he is making sure the 
promoter is living up to the promoter's contractual obligations to the 
fighter. There are several consequences of these differences.
    A) Obviously a manager must be knowledgeable and competent, but 
once that is established, the most important factor in choosing a 
manager is whether he is trustworthy. The manager is the fighter's 
representative; his loyalty must be unquestionable. No matter what a 
manager's contract provides, if he is not truly on the side of the 
fighter, he will be in position to harm the fighter or allow the 
fighter to be taken advantage of.
    B) Obviously, a promoter must be competent and have sufficient 
resources (such as television access) to promote fights effectively, 
but once that is established, the most important factor in choosing a 
promoter is what the promoter is willing to commit to in writing in a 
promotional contract. The promoter is not the fighter's representative, 
and has no duty of trust or loyalty. The promoter's duty is to do what 
the promotional contract says he will do, although he must do so in 
good faith and in a fair manner. Too many fighters sign with a promoter 
based upon oral assurances that he will do things other than what the 
contract says. That is a mistake. Every promotional contract provides 
that the promoter's obligations are limited to the written provisions 
of the contract. When everyone is getting along, promoters often go 
beyond their written obligations, but when the relationship is strained 
for any reason, a fighter can expect to receive only what the promoter 
has committed to do in writing, even though the law may impose other 
implied duties, enforcing those additional implied duties usually 
requires litigation, which is expensive, time-consuming, and uncertain.
    C) In choosing both a manager and a promoter, a fighter must 
consider carefully the relationship between the manager and the 
promoter. There have been well-known instances in which the manager's 
relationship with a given promoter has been more important to him than 
his relationship with the fighter. After all, some managers reason, 
``fighters come and go, but the promoter will be here for a long 
time.'' Even worse is the completely incomprehensible situation in 
which a manager actually works for, or is otherwise under the control 
or influence of, the fighter's promoter. If a manager is not willing 
and completely free to go to war with his fighter's promoter, if and 
when necessary and appropriate, the manager cannot represent his 
fighter adequately.
    D) Beware of managers who are also promoters. With some exceptions, 
the Ali Boxing Reform Act prohibits any individual from simultaneously 
acting as a manager and a promoter with respect to any given fighter 
and event. This does not literally prevent a fighter's manager from 
acting as, or on behalf of, a promoter of an event that does not 
involve the fighter, but this can create a more subtle conflict of 
interest in the attitude of a manager. I believe a manager can best 
represent a fighter's interests by consistently being on the side of 
the fighter in all boxing transactions. I have generally avoided 
representation of parties whose interest are in conflict with fighters. 
My job is to protect and advance the interests of fighters, and I try 
to avoid being on ``the other side of the table''. A manager can 
adequately represent a fighter and be a promoter of other events, but 
it requires a difficult change of orientation.
Rule No. 2: Take the time and make the effort to know as much as 
        possible about the people you contract with.
    Every prospective manager and promoter who has ever talked to a 
fighter has promised to take care of him. A fighter must go beyond the 
self-interested talk of the prospective manager or promoter and do some 
``due diligence.'' This is harder than it should be, because there is 
far too much misinformation floating around in the boxing world, and 
even the best people are unfairly attacked behind their backs by 
competitors. But if you try hard to solicit opinions from people with 
good reputations who have nothing to gain or lose, you can get a pretty 
good idea how people in the boxing business operate. Don't listen to 
attacks from competitors, but when there is too much smoke from 
reliable and disinterested sources, there is usually fire and danger.
Rule No. 3: Avoid people who do not want you to obtain independent 
        advice from a lawyer.
    We are all painfully aware that there are many unscrupulous 
lawyers, but my many years of experience have taught me beyond doubt 
that there are many more honest lawyers than dishonest. Perhaps even 
more important, the vast majority of lawyers do not want to lose their 
licenses to practice their livelihoods. A lawyer has a legal and 
ethical duty to put his client's interests above all others including 
his own. Most reputable lawyers take this duty very seriously. If a 
prospective manager or promoter objects to your having a proposed 
contract reviewed by a reputable lawyer of your choice, that is a huge 
red flag. I represent a number of fighters as manager, and I uniformly 
insist that they obtain independent legal advice before signing a 
contract with me. Anyone who fears that kind of scrutiny is probably 
not someone you want to be associated with. And don't fall for the 
argument that ``you know how lawyers are; they always find what's wrong 
with everything.'' You need to know not only what all the benefits of a 
proposed contract are, but also what all the risks are and how the 
contract might be made better for you.
Rule No. 4: Limit your team to people who have a necessary job and do 
        it well.
    It doesn't matter how well a fighter is protected outside the ring 
if people other than the boxer are ending up with too much of the 
boxer's money or giving the boxer bad advice. While having a large 
``entourage'' is a tradition in boxing, in my view, it is a mistake for 
two reasons. First, every unnecessary member of the team takes hard-
earned money out of the fighter's pocket one way or another. Second, 
having a group of people around who do not have specific jobs 
inevitably results in conflicts and disharmony as those without jobs 
constantly second-guess those who do have jobs.
    Evander Holyfield is one of the most successful fighters in boxing 
history, and has one of the smallest teams ever for a heavyweight 
champion. Team Holyfield consists of fewer than ten people, and every 
one of us has a specific and necessary role. While every member of Team 
Holyfield is generously compensated, Evander still retains a higher 
percentage of his purse than any fighter I know of. That is how it 
should work.
Rule No. 5: One way or another, make sure you have a lawyer on your 
        side.
    A good, smart, competent, and tough manager can go a long way 
toward protecting a fighter outside the ring, but when it comes to 
protecting and enforcing a fighter's rights, a lawyer who truly 
understands the boxing world is the ultimate defense. This is not just 
my view, but also the view of the only Four-Time Heavyweight Champion 
of the World, Evander Holyfield. As I indicated at the outset, I 
realize that having a lawyer on your side is easier said than done, 
especially early in a fighter's career when he has little or no money, 
but there are ways to overcome the financial hurdle.
    First, you can engage a manager or boxing management company with 
legal expertise. World Class Boxing, of which I serve as President, 
provides boxing management services, along with legal expertise, and 
there are other reputable managers who provide legal expertise as well. 
Another option is to hire a management team consisting of a boxing 
management expert and a lawyer with boxing experience. That is how 
Michael Grant operates with his management team consisting of my 
colleague, Craig Hamilton, and myself. Similarly, WBA Heavyweight 
Champion John Ruiz has been managed jointly by Norman Stone and 
Attorney Tony Cardinale. Obviously, a manager can hire a lawyer to 
represent the fighter but that results in additional expense to the 
fighter and the lawyer hired would not know the facts and circumstances 
on a first-hand basis. In most instances, a manager who is a lawyer or 
has a lawyer for a teammate can protect a fighter in ways that a 
manager who is not a lawyer or affiliated with a lawyer cannot.
    Second, a fighter should be able to find a reputable lawyer who 
will help him without compensation. There are many lawyers who are 
``sports nuts'' and would love to help an emerging boxer. Obviously, it 
is better to have a lawyer who understands the boxing world, but a 
lawyer unfamiliar with boxing can nevertheless provide valuable 
protection. Basically, the issues, other than those dealing with the 
sanctioning bodies, are contract law issues that most lawyers are 
competent to handle. Also, throughout the United States, there are 
``Legal Aid Societies'' that supply legal services to people who cannot 
afford a lawyer. Most of the lawyers who work at Legal Aid are 
extremely competent, dedicated young lawyers who want to help those in 
need before going to work for private firms. Any fighter can call his 
local Bar Association and get the telephone number of the Legal Aid 
Society in his area and should be able to obtain legal counsel at no 
cost. In addition to generalized legal services available through Legal 
Aid Societies, I am planning to organize a group of volunteer lawyers 
in Atlanta who will represent athletes at no cost, and I call upon 
lawyers all over the country to do the same in their respective 
communities.
Summary and Conclusion
    Learning how to protect oneself outside the ring is a critically-
important part of the job of being a professional boxer. Boxing is a 
tough way to make a living, and involves risks most other professions 
do not require. Those risks are worth taking only if a fighter receives 
in return for his services what he deserves. People watch boxing to see 
the boxers. The other people in boxing are important and necessary, but 
the boxers should receive the bulk of the profits made from their 
efforts. By following the advice set forth above, boxers can learn to 
defend themselves outside the ring as well as inside and make sure they 
are the primary beneficiaries of their own courage and efforts.

    Mr. Stearns. I thank you gentlemen for your eloquent 
presentations. Let me start off by saying: When you look at 
this question, and I think most people on this side, Members of 
Congress, would agree with you, it is a little bit puzzling to 
us why there has not been a national commission.
    I am a realtor. When a person sits down to get a mortgage 
from a bank or goes to buy a property, we have a standard 
procedure to do that. So even buying a house, whether it is 
$50,000 to $2 or $3 million, there are standard procedures that 
you do to protect the buyer of the home, and also the seller.
    It would seem, when you have a legal contract dealing with 
boxing which represents sometimes mega-bucks, that there should 
be some standard procedures that are recognized across the 50 
States. So, Mr. Thomas, the fact that you couldn't get the 
disclosure form and then later they pulled the rug out from 
under you and said, by golly, that is not what we showed you, 
you are not telling the truth, and you really look like you are 
not telling the truth, because you have no way to corroborate 
your own statements.
    So, you know, from us who are sitting up here, it just 
seems like, by golly, this should be put in place. Now there 
is, obviously, a lot of money involved, a lot of politics 
involved, that's preventing this. But Mr. Sirb and Mr. English 
have made some very good points.
    Before we start, let me--just as a layman looking at this, 
I was confused with the WBA, the WBC and the IBF. Now I see 
somebody is a world champion of the WBA and then a world 
champion of IBF. What I don't understand is shouldn't all this 
be one organization so that, when we have a champ, he is 
champion of everything and not just this. And would a national 
commission cause these to come together or would they still 
remain separate? This is just sort of a minor question. It has 
always been bugging me. So I thought I would get it on the 
floor. Mr. Thomas?
    Mr. Thomas. I will respond to that.
    Mr. Stearns. The real basic question is: If we had a 
national commission, would we still be looking at three 
separate organizations that we would have to look in 50 
different States at?
    Mr. Thomas. My response is, with all due respect to Mr. 
Mack who I have great respect for, and he does a good job for 
his clients, I would submit to you that most of the people in 
the sport of boxing are afraid of the sanctioning organizations 
because of the power they have.
    Mr. Stearns. Afraid of what?
    Mr. Thomas. Afraid of the sanctioning organizations, the 
IBF, the WBC, the WBA. There is now a WBO. The reason is that, 
if you are crossways with the organization and your fighter 
just isn't getting promoted, you really can't prove that. So 
you don't want to come out and criticize. You can be 
blackballed in the WBA but not in the IBF.
    If you look at the ratings, there is no correlation among 
the four major organizations.
    Mr. Stearns. That is another thing that is puzzling, 
because when I try to understand in any of these three 
categories I am familiar with, I didn't quite understand how 
you determine who was the best of the three.
    Mr. Thomas. Well, my opinion is that a lot of people are 
reluctant to criticize these organizations, because they don't 
want their fighters to get hurt. I frankly don't care about it 
anymore. I am not worried about it anymore. I will get out of 
boxing before I kowtow to those organizations.
    Mr. Stearns. Do you even feel in yourself as a high powered 
attorney that one of these organizations could blackball you?
    Mr. Thomas. Sure.
    Mr. Stearns. That is your concern?
    Mr. Thomas. Yes. Yes, I don't want them to have me on a bad 
list and my fighters get not, not because I get hurt.
    Mr. Stearns. I understand. If we had a national commission, 
do you think that would prevent you from being blackballed? At 
least, you would have someplace to go.
    Mr. Thomas. These are private organizations who started 
themselves up and decided that we are going to rate fighters 
and, if you want to fight for a championship, you pay me a fee 
and I will rate your fighters.
    That is why they were formed. There could be 14 of them or 
44 of them. There is nothing to stop it. I mean, this is 
another topic for another day.
    Mr. Stearns. Oh, I know. I know.
    Mr. Thomas. But a national--maybe we have something, a 
regulated organization that rates fighters properly, and we 
have all been talking about that forever. We just don't know 
how to make it happen.
    Mr. Stearns. Mr. Mack?
    Mr. Mack. If I may----
    Mr. Stearns. I mean, that is pretty powerful when you have 
a high powered lawyer say that he is concerned that he could be 
blackballed. Can you imagine what the promoter and the manager 
and all the underlings feel if this gentleman feels that? I 
mean, that is pretty powerful stuff here.
    Mr. Mack. Well, Mr. Chairman, I am a little surprised, but 
if I could respond to some of the points.
    I am relatively new to boxing. I like----
    Mr. Stearns. What does relatively new mean?
    Mr. Mack. The last 2 years, since the Ali Act.
    Mr. Stearns. Yes. Okay.
    Mr. Mack. And some of the things Mr. Spizler is talking 
about. As a fan, I suppose I was surprised that different 
ranking organizations rate people differently. But if I just 
may make a few points.
    The ratings have some subjective elements. One of the 
lesser ranking organizations tries to do it by computer, and 
their ratings don't comport with the others, because a lot of 
it is subjective. Who has fought whom? It is like Congressional 
races. Some of you have easy races, I hope. Some of you have 
difficult ones. So you vote totals may vary by that. So do 
fighters.
    Second, we do recognize the championships of the other 
organizations, and the ABC just passed a resolution this year 
that will require us to do that in our rules.
    Third, I would like a further discussion on what a U.S. 
commission would do. Would a U.S. commission rank fighters? 
Would it rank just American fighters or foreign fighters, and 
how would those be appealed? Would the fighter have to file an 
appeal under the Administrative Procedure Act, by the USBS's 
ratings?
    Those are serious issues. We do have appeals procedures. We 
have boxers and boxing writers complain about our ratings. But 
as I said, of the number of appeals we have or requests for 
ratings are really very few, when you get right down to it.
    So all I can say is between at least the top three 
organizations, some of the judgments are subjective. I just 
might add briefly, the judgments are made by committees with 
the IBF and the WBA that have meetings, have notes of the 
meetings, and they have a full discussion of the various 
factors that went into the ratings.
    Mr. Stearns. My time has expired, Mr. Mack, but I would be 
concerned. You have this new organization, the WBO. Do they 
have the standards that the WBA, you, have? And how do we know 
what standards they have, and how can we be assured that anyone 
working in the WBA is just not a front for something else and--
I don't know.
    Is there anybody else who would like to comment on my 
question. Then I am not asking anymore questions at this point. 
Mr. English?
    Mr. English. If I may. I have listened to a tape, and I 
cast no aspersions on the IBF. I will touch on that in a 
moment. But I have listened to a tape that I believe was played 
at the trial of Bob Lee. One of the statements on that tape is 
that malfeasance couldn't be proved, because ratings are 
subjective, as actually said by an official of a ratings 
organization.
    I mentioned the IBF. I want to say very clearly that, since 
that Bob Lee situation, the IBF has done more than any other 
organization to clean itself up, and the current administration 
of the IBF, in my opinion, has done a number of very laudable 
things to clean that up.
    I listened to that tape, because we were--a client that I 
represented really blew the whistle on what Bob Lee was doing, 
and that client was, in fact, blackballed until Mr. Lee was 
removed from office by the IBF. It was a promotional company, 
Main Events.
    The fighters did suffer, and there is a fear there. In the 
Act that is currently in place there is exhortatory language, 
and perhaps even it has some teeth to it, that requires some 
objectivity in the rankings. The organizations try with varying 
degrees of vigor to do that. Again, I think the IBF, frankly, 
does the best. But you may have the ratings in front of you. If 
you don't, I encourage you to look at them.
    It is very troubling to see that there is almost no 
correspondence by the various ratings organizations as to who 
No. 1, No. 2, No. 3, No. 4 are. That undercuts the credibility 
of the sport, in my opinion, dramatically.
    Mr. Stearns. Okay. Mr. Spizler?
    Mr. Spizler. If I may, very briefly, respond, MR. Chairman. 
I would like to note that, while the clean-up efforts of the 
IBF are certainly admirable, the committee should be aware that 
they are currently under a Federal monitor at the present time, 
a rather unique scenario which I believe came in the aftermath 
of the Lee prosecution.
    I most importantly wanted to note that under the 
Professional Boxers Amendments Act of 2004 that we are talking 
about here today, the United States Boxing Commission would not 
rank boxers, and there would still be multiple sanctioning 
organizations. However, what is so significant is that, for the 
first time ever, sanctioning organizations would be licensed, 
and they would be regulated.
    Perhaps even more importantly, under the USBC--the USBC 
would be called upon under this Act to create objective rating 
criteria that must be adopted by each and every sanctioning 
organization within 90 days of the setting forth of that 
ranking criteria and, of course, must abide by that ranking 
criteria.
    So uniformity would be applied across the board to all 
sanctioning organizations.
    Mr. Stearns. I thank you. My time has expired. The 
gentlelady, Ms. Schakowsky.
    Ms. Schakowsky. Am I right in hearing that, of the five of 
you, four do believe, whether or not you support to the word 
that legislation that has--that the Senate legislation does 
support--you all support, except for you, Mr. Mack, Federal 
legislation? I am looking at your testimony, Mr. Mack, where 
you say it is not necessary to create a new Federal agency, 
which is the centerpiece, really, of the Senate bill.
    Mr. Mack. That is correct.
    Ms. Schakowsky. So is that true? You know, I have to tell 
you that it is very rare on any issue that people that are 
associated with a particular industry, if you will, come to us 
and say we need your help, as you did explicitly, and we need 
Federal legislation. I find that, in and of itself, to be 
extremely compelling.
    Mr. Mack, in your summary of your testimony you say that it 
would duplicate current requirements--your objections--
substantially expand Federal authority, impose unreasonable 
requirements.
    What I am hearing is, from the others, that the current 
legislation has such great loopholes in it and lacking such 
teeth that, in fact, there is no particular burden. In fact, 
there is an adequate burden.
    Mr.--I am going to quit in a minute and let all of you 
respond in the way you want, but Mr. English, I was looking at 
your example two that you didn't talk about where California 
commission has decided--this is a quote--``that to enhance the 
dramatic effect of the series, results, including medical 
suspensions, will not be reported to the national registry.'' 
And apparently, because the commission sets its own rules, 
maybe they can do that, just decide the rules.
    Mr. English. Well, they are doing it, but they can't do it 
in the sense that there is Federal legislation. This is 
something that really, frankly, bothers me, because while I am 
sure that the producers of the particular series--series; 
there's two--have not evil intent, you have to have uniformity.
    If I am a powerful promoter, and I represent a powerful 
promoter, I should not be able to come in and change the rules 
for, ``dramatic impact.'' The rules are meant to apply to 
everyone, and that particular rule is a health and safety rule, 
which makes it even more important that it be applied.
    So if this happens, to me, that sticks out like a sore 
thumb.
    Ms. Schakowsky. And the examples of subjectivity of ranking 
or rating sounds to me that the subjectivity is largely or at 
least in part can--in the past has been determined by the size 
of the contribution, if you will, a problem that we have also 
tried to deal with in campaign financing forum and in other 
aspects of life.
    So I would like to get your justification, Mr. Mack, of 
leaving the situation as it is after very compelling arguments 
and testimony from Mr. Muhammad Ali why anyone would approach 
this and say that we don't need as a Federal Government to act 
to create, in my view, the most important to health and safety 
of fighters and their financial wellbeing.
    Mr. Mack. Representative Schakowsky, if I can make some--I 
hope I pronounced that correctly.
    Ms. Schakowsky. That is correct.
    Mr. Mack. If I can respond with a few points. First of all, 
I am not here to justify everything that happened before the 
year 2000 with all of the ranking organizations. So the horror 
stories you have heard, I am not here to respond to those.
    What we have tried to do since you passed the 1996 bill and 
the 2000 bill, we have tried to change our procedures. We have 
made an extra special effort to be transparent, and that is the 
point I wanted to make.
    So some of what you have heard is B.C., and I am talking 
about A.D. I am talking about after the passage of the 200 Act.
    Second, I wouldn't want you to interpret my testimony to 
say that there is no further role for legislation by the 
Federal Government and by the Congress. What we think is that 
S. 275 goes too far. There are things that you could do for 
health and safety of the boxers.
    I wish to correct a mischaracterization here. Sanctioning 
organizations may be subject to greater regulation by the 
States, and the State of Nevada, in fact, recently amended its 
regulations to authorize the licensing of us by the States.
    Why Mr. Spizler's States or Mr. Sirb's hasn't done that, I 
don't know, but at least one other State has.
    Ms. Schakowsky. But, Mr. Mack, you asked the question, 
would the USBA be required to do the rankings. I mean, if you 
have read the bill, you should know that it would develop 
guidelines for the sanctioning organizations to use in rating 
boxers and that the sanctioning organizations would have to 
make available to the public and to the USBA any changes in 
rank for top 10 boxers.
    So disclosure of the information. So it would not do the 
rankings.
    Mr. Mack. But if I may point out, you gave the same 
authority to the Association of Boxing Commissions. They did 
adopt ranking criteria, which we adopted in our rules. 
Nevertheless, you heard today disputes over how those are 
applied, whether they are applied equally across the board.
    The same thing would happen if the new commission created 
certain criteria. We would put them in our rules, but there 
still may be variations on how we apply them. So I think you 
will always have those variations unless you have one agency or 
authorize one private entity to do the ratings for the country.
    I am not telling you that there aren't any problems with 
the ratings or understanding them. But I don't think the 
proposed bill as written solves all the problems you have 
identified.
    Ms. Schakowsky. Yes, Mr. Sirb?
    Mr. Sirb. Ms. Schakowsky, let's talk about a rating, very 
specific. Last year, 2003, February, WBC, World Boxing Council, 
one of the most powerful organizations had a fight. Eric 
Morales dominated, 126 pounder, pure puncher. Record, 42 and 1. 
Was the world title holder and should have been the world title 
holder.
    Eddie Croft--this is just last year, in the new year. Eddie 
Croft, 23-7-1, not a bad record until you look at it. He hadn't 
fought in 3 years. He had lost his previous three fights all by 
knockout. He fought for a world title. Anybody want to guess 
what the outcome was? Lost by TKO. That is the ranking.
    In this bill 275 it gives specific authority to the 
national body to set objective criteria which they must follow. 
In the bill that stands now it is only if you want to follow. 
There is no teeth at all in the bill now. We did at the ABC 
come up what we thought was objective criteria. Some 
organizations bought it; some didn't. Some did when it was a 
certain fighter. When it didn't work with a certain fighter, 
they didn't.
    In the bill that you have before you right now, the 
objective criteria would be set. if I come up and I knock out 
Mr. Mack, I deserve to be ranked above Mr. Mack, not because I 
am not with the right promoter, I don't have enough money, I 
may not be the right color. I win. I get above you. That is 
objective criteria that anybody can understand.
    Mr. Mack. We would be in different weight categories, 
though.
    Mr. Sirb. It wouldn't bother me.
    Ms. Schakowsky. Mr. Chairman, if you would, let others--Mr. 
Thomas wanted to respond.
    Mr. Stearns. Sure. Go ahead.
    Mr. Thomas. First, Congresswoman Schakowsky, I think one of 
the things you said resonates with me. We sound like a bunch of 
teenagers who want the parents to give us a curfew. I mean----
    Ms. Schakowsky. Oh, no, I didn't mean that in a critical 
way.
    Mr. Thomas. No, I wasn't critical. What I am saying is it 
is unusual. We don't want to be regulated. We need to be 
regulated. We represent, the four of us, fighters/managers, 
promoters and regulators, and all of us say we need your help.
    It is only the organizations, the sanctioning 
organizations, who don't think we should do this. We are open 
to scrutiny, want scrutiny. They don't. It is as simple as that 
on why we are apart on these issues.
    I think there is something very important about a boxing 
commission in licensing these organizations, because right now, 
when they don't comply, what happens? I mean, what happens to 
them? But if they were licensed, they could lose their 
licenses, and that would put them out of business. I think that 
would drive reform in those organizations better than anything 
else, the fear of losing the right to conduct business.
    Mr. Spizler. If I may add, Mr. Mack referenced that Nevada 
has just recently adopted provisions providing for the 
sanctioning organization licensure. I would suggest that, in 
the absence of uniformity around the country, if a sanctioning 
organizations was suspended in Nevada--of course, Nevada being 
perhaps the capital of boxing in the world--nevertheless, the 
sanctioning organization can simply to another State and 
function without any form of reciprocity being applied to that 
suspension.
    So it again is uniformity that is so mandatory to 
effectuate the appropriate reform.
    Mr. Stearns. Mr. Shimkus?
    Mr. Shimkus. Thank you, Mr. Chairman. Mr. Sirb, are you a 
boxer yourself?
    Mr. Sirb. I was an amateur fighter, never turned pro.
    Mr. Shimkus. I was going to say, your features----
    Mr. Sirb. I take that as a compliment.
    Mr. Shimkus. To any boxer, it is a compliment. It is a 
compliment. But I applaud those who have been in the ring and 
then have stayed in the business, in essence. I am a West 
Pointer, and West Point still requires plebe men to go through 
boxing, and we end that instruction with three matches of three 
rounds and, I think, 2 minutes each round. You really get an 
appreciation for the athleticism required in the ring, because 
you just can't hold your arms up when you get at the end of the 
second round.
    So these guys who can continue to punch in the rounds that 
are in the teens, it is just an amazing physical feat.
    I would concur with my colleague from Illinois. We have got 
to do a better job for these athletes who, for many different 
reasons, are in this, some for the love of the sport, some this 
is their ticket out, and great opportunities exist. But they 
have also--we also know they have been preyed upon, and it does 
a disservice to everybody except for those who do the preying. 
So I applaud the chairman for bringing this up.
    I have a townhouse here with three other Members of 
Congress. So after we vote, you know, we eventually gravitate 
to our residence and we sit around and drink a beer and swap 
stories and maybe turn on the TV. I notice that there are now--
there was two nights ago a reality show on boxing.
    I don't watch much TV, and I am not really enamored with 
reality shows, to begin with. Talk about this new avenue. Are 
they sanctioned? Are they licensed? Are they abusive? What is 
your evaluation of this new advent on boxing which is reality 
TV boxing? One guy, they rated him. A guy did situps, and he 
got rated No. 1, and then the guys at the bottom--I think 
there's 12, 12 boxers, and then one guy has to pick one guy in 
the top 3 to box. That is when I turned it off, but it is 
really a new--will it impact any of this discussion and debate 
that we are having here or is it just a show, and we take it 
for what it is?
    Mr. Sirb. I think it is basically a show, and take it as it 
is. One of the concerns I had--Our understanding is that in 
California the commission is overseeing the event. But our 
concern that Mr. English had brought up and one of the concerns 
I had: If a kid gets knocked out--I mean, this is fights, as 
you saw. I mean, there is a kid throwing a right hand to your 
face, and if someone got knocked out but in the interest of the 
show don't tell anybody because it would give away the endings, 
how about if that kid that got knocked out then came to 
Pennsylvania to fight?
    Mr. Shimkus. Right.
    Mr. Sirb. I wouldn't know it. I would not know that I've 
got a concussed kid ready to fight in my State, because it 
wasn't shown to the national registry in the interest of a 
show. Now I hope that doesn't occur, because if that does 
occur, there is going to be a major problem, or could be a 
major problem.
    I ask all the members, if you had one thought, the people 
that will be against this bill--and there will be some. Don't 
get me wrong. Look who is for the bill: Ali, Roy Jones, Bernard 
Hopkins. Those are fighters. Those are our three biggest 
fighters right now in the country. Why would they be for this? 
Why would they be for this? That's all you have to ask 
yourself.
    Mr. Shimkus. Mr. Spizler, you wanted to add to this?
    Mr. Spizler. Yes, thank you. I just wanted to respond in 
regard to the reality show that you had brought up. It is my 
understanding, and I am not well versed in what happened but I 
am speaking secondhand perhaps hearsay--but it is my 
understanding that in regard to the suspensions that would 
occur--and this was done under the auspices of the California 
State Athletic Commission--that it was agreed in the contracts 
of the boxers that they voluntarily agreed to suspensive 
periods that were indeed reported to the national registry 
through including the last showing of the program.
    So that all of those boxers consented to suspensions and 
did not fight and will not fight until the last program is 
broadcast. Whether that justifies the contravention of the 
literal interpretation of the law, one could argue. But there 
is some protective measures, I believe, that were instituted 
along those lines. In all fairness, I wanted to make that 
point.
    Mr. Shimkus. Sure. That is what we are here for, to find 
out information. Mr. English.
    Mr. English. Sitting behind me is Pat Panella, the 
Executive Director, I believe, of the Maryland Athletic 
Commission. He just whispered to me that he believes that that 
was a proposal, but it was not effectuated. The only thing I 
can say is that the contracts that I did see with respect to 
one of them did not contain such a clause.
    Mr. Shimkus. So the answer that I am receiving as a Member 
of Congress is very much what you are putting up with as you 
come before us in legislation is. It is so vague. It is like 
wisps of smoke, and we really don't know. Then with any of 
those, the protection of the actual--the combatant in the ring 
who is giving his all, they lose the benefit of contractual 
obligations, due representation, safety issues as they get 
preyed upon.
    Mr. Chairman, it was a great hearing. I appreciate the 
testimony of the folks on the panel.
    Mr. Stearns. Thank you. Ms. McCarthy.
    Ms. McCarthy. Thank you, Mr. Chairman, and thank you to the 
panelists today.
    Mr. Mack, I have--I want to pursue what our ranking 
member--that discussion she started, because I think that you 
and others at the table might want to weigh in. But by way of 
background, I have been a legislator for 28 years, first in the 
Missouri legislature, now here in the Congress, and we normally 
wouldn't intervene as legislators in a matter such as this 
unless the profession itself didn't choose to clean its act up.
    So I look to you because of your role with the World Boxing 
Association and the International Boxing Federation to 
substantiate your criticism of S. 275 when you talk in your 
testimony about it being flawed. It would duplicate current 
requirements, but you don't really illuminate that to the 
degree that would satisfy, I think, other members of this 
panel, and certainly those on your panel.
    Substantially expands Federal authority: We don't ever 
intend in the Congress to substantially expand Federal 
authority unless there is a need, and there are four witnesses 
around you who have made it quite clear--and one was Ali who 
testified before you--that there is a need.
    Imposing requirements, I would like you to speak to first, 
because when it comes to health and safety, how do you instill 
uniformity without Federal action? I am curious to hear how you 
plan to propose some sort of change within the current law. The 
current law is in place.
    To get to the goals that we all seek, and I happen to share 
the views of the panelists around you, how do you propose to do 
that with the current law that you are supposed to uphold?
    Mr. Mack. Well, Representative McCarthy, those are all very 
good points and questions.
    Ms. McCarthy. Thank you.
    Mr. Mack. First of all, as you know as a legislator, what 
you look to is what are the current problems, especially in the 
context of the legislation passed in 2000, and how would you 
address those.
    I would just ask you to consider from all of the States--
and you have heard from two here, but you haven't heard from 
all of them--how they believe the 2000 bill is being enacted, 
let's just say, from health and safety requirement for the 
boxers.
    Ms. McCarthy. Is there uniformity?
    Ms. Mack. I am not an expert on that. The State people who 
formed the Association of Boxing Commissions which you 
recognize in Federal statute were supposed to bring about 
uniformity. What I have heard this morning is there isn't 
uniformity, which is not my organization's fault, by the way.
    Ms. McCarthy. You are boxing sanctioning bodies, I am told 
by the summary of your testimony, the WBA and the IBF which are 
boxing sanctioning bodies. If not you, who? If not now, when?
    Mr. Mack. Yes. Representative McCarthy, with regard to what 
we do, which is the ratings and the sanction of championship 
fights, we do comply--and by the way, I have been joined by the 
president of the IBF. Marian Muhammad is in the audience, if 
you want to hear from her. We do comply with all State 
regulations, all tribal regulations, the Federal Act and, I 
might add, foreign acts. We have to comply with the provisions 
of other nations and boxing federations.
    We do not primarily--although we are concerned with the 
health and safety of boxers, that is not primarily our duty. 
Our duty----
    Ms. McCarthy. Whose is it?
    Mr. Mack. Well, it is with the States. It is with the 
people who put on the fights.
    Ms. McCarthy. Is there uniformity within the States, to 
your knowledge?
    Mr. Mack. I couldn't speak to that. I can tell you this. We 
have tried at our conferences through our medical seminars and 
that sort of thing to get as much uniformity as possible. If I 
could speak----
    Ms. McCarthy. Who can assure uniformity of health and 
safety, if not you?
    Mr. Mack. As I understand the legislation you passed in 
2000, that was to be the goal of the Association of Boxing 
Commissions. That was my understanding, chaired, I might add, 
by someone from your State.
    Now whether they have done that or not, you would have to 
hear from Mr. Spizler or Mr. Sirb, both of whose States belong 
to that organization.
    Mr. Spizler. I would very much like to respond to that.
    Ms. McCarthy. Yes, sir?
    Mr. Mack. But if I may respond to one other thing. We 
provided a notary letter to the committee, but I am not 
suggesting that everything in S. 275 is flawed, but if I could 
just give you one example, since you have asked about it.
    If you look at Section 207 on misconduct, which would apply 
to us, the Commission would be able to lift our license, not if 
we had done anything wrong, not if they suspected we had done 
anything wrong, but there is a last subsection in that section 
that says, if it is necessary for the protection of the health 
and safety or is otherwise in the public interest.
    So we could have acted in a manner more chaste than 
Caesar's wife, but if the Commission believes our activities in 
the future might be a violation of public interest, under the 
bill you have, the Senate bill, they could lift our license. 
Now we think that is too broad.
    If we are going to be licensed, we would like a fair 
licensing provision. That is just one example.
    Ms. McCarthy. Well, any suggestions, Mr. Mack, in the 
legislative process that--none of us feel that any bill is 
perfect, and that is why it goes through the process it is 
going through right now, which is hearings and study and 
hearing from the people affected.
    So I would suggest to you that you send to this 
subcommittee a more detailed approach to exactly what it is 
that you object to, because your presentation today seems to be 
an overwhelming rejection of the whole concept of Federal 
expansion of authority.
    I would much rather prefer that you had us, we on the 
committee, amend such a bill in order to address needs that 
are, in fact, not addressed by the bill.
    Mr. Mack. Representative McCarthy, you are absolutely 
correct. In 5 minutes, I didn't think I could give an analysis, 
but we would be very happy to provide suggestions and analysis 
of those provisions and the sections that we think you should 
look at changing. I would be happy to do that, and it is a very 
fair comment.
    Ms. McCarthy. I think that would be helpful to us. You 
know, I know your are just 2 years into this, but the 
legislative process is one of give and take. We look for wisdom 
from those that experience, but we don't take kindly to people 
who just oppose something because it is change.
    Mr. Mack. I am 30 years into the legislative process, not 
in DC. So what I said, I am only 2 years into boxing. I 
understand that completely and will provide you detailed 
comments.
    Ms. McCarthy. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Stearns. I thank the gentlelady.
    Ms. McCarthy. Oh, wait. Someone wanted to comment. I am 
sorry.
    Mr. Spizler. Thank you very much, Congresswoman. I just 
felt compelled to respond to Mr. Mack's assertion that there 
was no need for Federal oversight because uniformity and the 
role of uniformity is imposed or has been imposed upon the 
Association of Boxing Commissions.
    I think it is important for the committee to understand 
what the Association of Boxing Commissions is. It was 
incorporated in 1993. It is comprised of 58 State and tribal 
boxing commissions, and its noble goals and intentions are, 
notwithstanding its working members' efforts and stalwart 
dedication which are provided, by the way, strictly on a 
volunteer basis, totally absent any form of funding and is 
absent the necessary authority.
    So if the ABC insists that something be done and a 
particular State declines to do it, the ABC has no authority 
other than to perhaps expel that State from its organization, 
which is self-defeating.
    As far as uniformity is concerned, different States have 
different interests. There are some States in the more rural 
areas of the country who are opposed to this bill, for example, 
because it mandates the presence of an ambulance be present at 
every boxing event in this country, with the argument being, 
well, the boxing event is held in a more rural area; it is too 
expensive to have an ambulance there. The promoter won't put on 
the fight there and, therefore, we are going to lose revenues.
    The idea of my having an ambulance present at a boxing 
event, to me, is absolutely absurd. So it is that kind of thing 
that doesn't allow the ABC to mandate uniformity. That is 
necessary to be mandated, and only through a Federal oversight 
can that mandate be accomplished.
    Ms. McCarthy. Thank you for that addition, and I thank the 
committee.
    Mr. Stearns. Mr. Terry.
    Mr. Terry. Thank you, Mr. Chairman. Appreciate all of you 
being here.
    I want to start off asking the devil advocate's question on 
why we are here today. But I want to lay some ground work 
first. I am a sports fan. I have been to many pro boxing 
matches in my hometown of Omaha, Nebraska, and am friends with 
several of our area boxers. Mouse Strauss is a promoter and 
kind of a character in the business, and Dickie Ryan and I went 
to the same high school and are good friends.
    So I like the sport. I really do. But I will have to say 
that, just as a sports fan there is a perception out there that 
the boxing industry is just so inherently corrupt that they 
have made themselves irrelevant as a sport.
    So I sit here looking at legislation from Congress where 
those that are still the purists and want it to be a sport have 
come to us and asked Congress to save boxing from itself. That 
is the bottom line here, you want Congress to act to save the 
sport.
    My question is, why should we? If the powers that be in 
boxing want to make it irrelevant as a sport, make it an 
entertainment show like wrestling, and maybe the WBO is more 
like the WWE, why should we act? If that is the direction that 
those gatekeepers in boxing want to take, that it is just an 
entertainment show, why should we care? Why should we pass any 
legislation?
    Who wants--I love your actions. You are like jabs, you 
know, quick, to the point.
    Mr. Sirb. I will give it this, Congressman. You raise a 
valid issue. It goes back to that State's rights issue. Why get 
involved? The difference between easy--the kid in my industry 
is a kid, flat out. He can get injured seriously. It doesn't 
take a lot. If you have never been hit by a right hand to your 
head and then your leg goes numb--stuff can happen.
    The first course of business for me, and I even look at the 
Federal Government--why should they get involved is the health 
and safety issue. If it is not there, I don't think you should 
get involved. Let the industry rule itself. But there is 
definitely a health and safety issue here.
    I am convinced. The medicals are different from each State 
to each State to each tribal organization. They differ vastly 
in what was required to be a pro boxer, and the difference is--
the analogy: I saw Congressman Osborne here. Why would Congress 
get involved in athletic agents? They got involved in athletic 
agents because it was unscrupulous. They were hurting the 
athlete himself, maybe not physically like it is going to be in 
boxing, but financially hurting them. In boxing, it is both. 
Physically and financially, they are getting hurt.
    Mr. Terry. Let me interrupt and just follow up on that for 
a little bit of discussion here. I do agree that we are talking 
about the safety of the boxers. So doesn't that open the door 
to someone saying, especially from the testimony here about the 
corruption that is just so inherent in the industry that, even 
if we pass a Congressional Act to create some national 
organization which, by the way, other sports haven't had to 
come to Congress to create--that the corruption goes so deep 
that the promoters and the gatekeepers for the boxers and all 
of that--the corruption is still going to be there. They are 
going to find the cracks in it, and the water is going to seep 
through those cracks.
    Why don't you just ban professional boxing, if it is really 
about the protection of those individuals? That is going to be 
a question we are asked. How do you answer it?
    Mr. Sirb. The sports that I equate to pro boxing where it 
is physical: Football, hockey. Those equate to pro boxing. They 
are governed, maybe not by the Federal Government, but they are 
governed by the leagues.
    Mr. Terry. They have done it by themselves.
    Mr. Sirb. They have done it by themselves. Their players 
also have unions, very strong unions that demand some physical 
capabilities and safety measures. Boxing has nothing. There is 
no union for fighters. There is no league. There is no one 
person you can go to. There is no commissioner that can make 
the call.
    It makes for a very compelling argument when you look at 
it, and you are right. This has never happened in professional 
sports. It is a very unique sport that needs to have this type 
of oversight.
    Mr. Spizler. If I may respond also, Congressman. Boxing, 
unlike any other professional sport in this country, but for 
its authorization and legalization by law, in effect is a 
crime. It is consensual assault, one person hitting another 
person.
    All other sports can be conducted in the amateur divisions 
and otherwise without any kind of authorization by law, 
football, baseball, basketball, etcetera. Boxing is regulated 
by necessity by the government, because otherwise it is a 
crime. It is not being effectively regulated by State and 
tribal organizations at the present time, and there is a need 
for a national oversight.
    You say, if the gatekeepers want it this way, then why not 
just let it be. The question there, I think, is answered with a 
question. Who should the gatekeepers be? It shouldn't be the 
sanctioning organizations. It shouldn't be a handful of 
powerful promoters, and it takes the Federal Government, as it 
is being asked by the members of this panel, to step in and 
become the gatekeepers and save the sport that is such a 
valuable asset, I think, to this country and as was so 
eloquently referenced by Mr. Ali.
    Mr. Terry. It is up to the chairman whether you--I am past 
my time.
    Mr. Stearns. Please. It is Mr. Terry's question. We will be 
glad to hear the answers from all of you.
    Mr. Thomas. Congressman, I have a couple of responses. 
First of all, Evander Holyfield was the ninth child of a mother 
with an elementary school education who lived in a public 
housing project in Atlanta. He now has enough wealth to take 
care of thousands of people, which he does every year. He has 
done a lot of good with what he's got, and he never would have 
gotten it without the opportunity of boxing. He wasn't good 
enough in any other sport. To a lesser degree, there are 
thousands and thousands of young kids out there who pull 
themselves up through the sport of boxing.
    So there is a reason to have boxing out there, I think. It 
is a noble sport when it is done right. I go back to what I 
said earlier. There are a small number of powerful people in 
this business who account for a large majority of the ills. If 
we had somebody we could go to, to regulate them and get them 
in line or get them out, one or the other, we would have a good 
sport. But we cannot come together as a group because of what 
Mr. Spizler said, because of the way we are not organized, not 
the way we are organized.
    We need a central body that we can go to, to put the 
spotlight on the bad guys, and we can have a very good sport.
    Mr. Stearns. I thank the gentleman. The gentleman from 
Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. I have just some 
general questions, I guess, and I would like my full statement 
to be placed into the record.
    Mr. Stearns. By unanimous consent, so ordered.
    [The prepared statement of Hon. Gene Green follows:]

  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas

    I'd like to thank Chairman Stearns and Ranking Member Schakowsky 
for holding this important hearing.
    I'd like to thank Mr. Ali for joining us for this hearing as it is 
the Muhammad Ali Boxing Reform Act of 2000 from which we seek to build 
a stronger foundation for Boxing as a professional sport.
    Boxing is the only professional sport with out a national governing 
body. With millions of dollars on at stake when 2 men go into the ring, 
I think it is in the best interest of the fighters, managers and boxing 
as a sport to bring some uniform regulations into the industry.
    I've taken an increased interest in boxing recently as Juan Diaz; a 
resident of my Congressional District recently won the World Boxing 
Association Lightweight Championship in our hometown of Houston.
    This bout, like hundreds held across this country, revealed the 
global impact this sport has. Mr. Diaz defeated Lakva Sim, a citizen of 
Mongolia.
    Many view boxing as a ``pure sport'' consisting of 2 men battling 
in an arena where the best man wins. There is no fancy equipment other 
than gloves, shoes and a mouthpiece. However, behind the scenes, 
contract negotiations and bout contracts are anything but pure. They 
are complicated business deals totaling at times over $100 million for 
one bout.
    Also, there are medical concerns. Medical requirements vary from 
state to state and it is not unheard of for a fighter to fail the 
physical requirements to fight in one state and be able to fight the 
next day in another.
    There is clearly a need for us to examine this issue and I compel 
this committee to do what we can to improve this sport. I think we can 
provide a framework in which managers promoters and fighters can 
benefit, make a profit and provide safe bouts and entertainment for 
millions of boxing fans throughout this country.
    I'd like nothing more than to see Congress ensure people like Juan 
Diaz have a fair chance to succeed in this sport.
    Thank you Mr. Chairman. I yield the balance of my time.

    Mr. Green. Recently, Juan Diaz, a resident of our district, 
won the World Boxing Association lightweight championship, and 
I have gotten to know a young man, Rocky Juarez, who went to 
the high school I did, who is also working his way into boxing. 
I have some concerns from what I have read in the testimony, 
particularly that there is not information sharing between the 
States, and you questioned whether an ambulance should be 
available. We have an ambulance available at our high school 
football games in Texas. Granted, that may be well attended, 
but we have 5,000 people and they can afford to have an 
ambulance there from the school district.
    So I think there is a need for changing the Federal law. I 
would like to see fewer associations, simply because I think 
what I am seeing in boxing is a lessening ability of the 
average folks to be able to see it.
    I know there is a lot of money being made, but I worry it 
is not made by the boxers. It is being made by the promoters, 
and that is natural, because they make the investment. But if 
there was a merging of the associations, that would be great. 
If the States communicated with each other, that would be 
great. And of course, the health and safety, because again, 
having played football in much older years, I was glad my son 
played soccer instead of football like I did because of the 
head injuries, even with a helmet, and you don't have helmets 
in boxing.
    It is a sport, and it is a historic sport. I think we need 
to do something and follow up on the 1996 and 2000 law to make 
sure we can change some of the things in the sport to make sure 
it is still available for a lot of folks. I wish we had more 
boxing matches in Houston. We do have some, but nothing where--
we can't compete with Las Vegas or other venues.
    Again, Mr. Chairman, that is all I have, and I would like 
to have my full statement in the record, and I look forward to 
the----
    Mr. Stearns. I thank my colleague.
    We have finished our questioning. I think I would just 
conclude by giving sort of a little wrap-up here.
    Inasmuch as I think the consensus is that we favor a 
commission, a Federal commission, here, you would have to make 
the argument, the two arguments: One, since we passed in 1996 a 
boxing reform law, why isn't that being implemented and, shall 
we say, enforced?
    I have the feeling that a lot of the good intentions in 
that bill are not being enforced by State Attorneys General, 
and that is probably something that is still up in the air.
    The other point is you have NASCAR, and I don't think 
NASCAR has a Federal commission, and that is a very dangerous 
sport, Mr. Sirb. You know, we had recently one of the fastest 
racecar drivers in the world who died, and they voluntarily 
came together and put together a new design for the helmet and 
the seating arrangement in the cars. So is it possible that the 
various boxing commissions can do the same thing that the 
racecar--NASCAR does?
    In the end, I think you have the sympathy and the will on 
this committee that we would like to help out and do a 
commission, and I think you have made a very good argument in 
favor of that. Obviously, Mr. Ali did the same thing with his 
wife, Lonnie, and his counsel.
    So we hope that, if we can, to maybe work with Senator 
McCain and possibly Peter King who has a bill in the House in 
the Education and Labor Committee which also has jurisdiction 
over this, and see if we can do something.
    We don't have enough time perhaps this year, but certainly 
this is something next year we hope to come back and perhaps 
have a legislative hearing and see if we can move to markup, 
even if it is something on the order of Senator McCain's bill, 
which I understand is not a heavily regulated bill. It is sort 
of a light rendition of the first attempt to do this.
    So your time has been very well spent, I think, here. I 
thank all of you for your very articulate arguments. Mr. Sirb, 
you look like a United States Congressman. Don't let anybody 
tell you you don't.
    So with that, I will close the hearing. Thank you.
    [Whereupon, at 11:16 a.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

 Prepared Statement of Hon. John McCain, Chairman, Senate Committee on 
                 Commerce, Science, and Transportation

    Thank you, Chairman Stearns, for chairing this hearing to evaluate 
the regulation of the professional boxing industry and to discuss the 
need for boxing reform. I am pleased that the greatest heavyweight 
champion of all time, Muhammad Ali, will appear today in favor of 
reform.
    Mr. Chairman, the title of your hearing today is ``Examining 
Professional Boxing: Are Further Reforms Needed?'' I would submit 
unequivocally that the answer is ``yes.'' I have been an avid fan of 
boxing for nearly fifty years, and while I have derived great joy from 
it over the years, I continue to be saddened and dismayed by the 
recurring scandals that mar what is left of the sport's credibility. 
Professional boxing is in dire need of a regulatory scheme that creates 
a level playing field for all participants. The sport has become more 
the ``red light district'' of sport and less the ``sweet science'' over 
time, and without the adoption and implementation of uniform federal 
standards, I fear that the sport of boxing will continue its downward 
spiral.
    Professional boxing is the only major sport in the United States 
that does not have a strong, centralized association or league to 
establish and enforce uniform rules and practices. There is no widely-
established union of boxers, no collective body of promoters or 
managers, and no consistent level of regulation among state and tribal 
commissions. Due to the lack of uniform business practices and ethical 
standards, the sport of boxing has suffered from the physical and 
financial exploitation of its athletes.
    The General Accounting Office (GAO) confirmed in a July 2003 report 
on professional boxing regulation that, because professional boxing is 
regulated predominantly on a state-by-state basis, there is a varying 
degree of oversight depending on the resources and priorities of each 
state or tribal commission. The report also indicates that the lack of 
consistency in compliance with federal boxing law among state and 
tribal commissions ``does not provide adequate assurance that 
professional boxers are receiving the minimum protections established 
in federal law.''
    I have introduced and the Senate has passed unanimously the 
Professional Boxing Amendments Act. This legislation is designed to 
strengthen existing federal boxing laws by making uniform certain 
health and safety standards, establishing a centralized medical 
registry to be used by local commissions to protect boxers, reducing 
arbitrary practices of sanctioning organizations, and providing 
uniformity in ranking criteria and contractual guidelines. It also 
would establish a federal entity, the United States Boxing Commission 
(USBC or Commission), to promulgate minimum uniform standards for 
professional boxing and enforce federal boxing laws.
    Despite Congress's efforts to address the problems that plague the 
sport of professional boxing by enacting the Professional Boxing Safety 
Act of 1996, and the Muhammad Ali Boxing Reform Act of 2000, boxing 
remains beset by a variety of problems, some beyond the scope of local 
regulation.
    Despite these federal laws, which established minimum uniform 
standards to improve the health and safety of boxers and to better 
protect them from the unethical business practices too often seen in 
boxing, promoters continue to steal fighters from each other, 
sanctioning organizations make unmerited ratings changes without 
offering adequate explanations, promoters refuse to pay fighters who 
have put their lives on the line, local boxing commissions fail to 
ensure the protection of boxers' health and safety, and boxers are 
contractually and financially exploited. Most recently, we have learned 
through press reports of a federal law enforcement investigation that 
reportedly may yield a dozen or more indictments for charges of fight 
fixing.
    Effective public or private oversight has led to decades of 
scandals, controversies, unethical practices, and far too many 
unnecessary deaths in professional boxing. A tragic example of poor 
local regulation occurred just last year in Utah where a 35-year old 
boxer collapsed and died in a boxing ring. The young man should never 
have been allowed to participate in the bout given that he had suffered 
25 consecutive losses over a three-year period leading up to the fight, 
including a loss only one month earlier to the same opponent he fought 
when he died. Mr. Chairman, while tragic in its own right, this is 
merely one in a seemingly endless series of incidents that continue to 
occur as a direct result of inadequate state regulation.
    The bill that passed the Senate would improve existing boxing law, 
and also establish the USBC to better enforce such laws. The primary 
functions of the Commission would be to protect the health, safety, and 
general interests of boxers. More specifically, the USBC would, among 
other things: administer federal boxing laws and coordinate with other 
federal regulatory agencies to ensure that these laws are enforced; 
oversee all professional boxing matches in the United States; and work 
with the boxing industry and local commissions to improve the status 
and standards of the sport. The USBC also would maintain a centralized 
database of medical and statistical information pertaining to boxers in 
the United States that would be used confidentially by local 
commissions in making licensing decisions.
    Since the introduction of the bill, there has been some confusion 
among local boxing commissions regarding the effect that this bill 
would have on them. Let me be clear. The purpose of the USBC would not 
be to micro-manage boxing by interfering with the daily operations of 
local boxing commissions. Instead, the USBC would work in consultation 
with local commissions, and only exercise its authority should 
reasonable grounds exist for intervention.
    Mr. Chairman, the problems that plague the sport of professional 
boxing compromise the safety of boxers and undermine the credibility of 
the sport in the public's view. I am hopeful that your committee and 
the entire House of Representatives will consider the Senate-passed 
legislation that provides a realistic approach to curbing such 
problems.
    Again, Mr. Chairman, thank you for holding this hearing, and I 
would request that my statement be included in the hearing record.

                                 <all>

</pre></body></html>
